           Office of Inspector General
           Central Audit Division
         Audit Report

                         Resource Conservation and
                              Recovery Act


Appropriate Violator Classifications and Timely Initial
 Enforcement Actions Would Strengthen Montana’s
           RCRA Enforcement Program
              Report No. 000762-2001-P-00004

                         March 28, 2001
EPA Inspector General Division   Central Audit Division
 Conducting the Audit:             Denver, Colorado


EPA Region Covered:              Region 8


EPA Program Offices Involved:    Enforcement, Compliance, and
                                  Environmental Justice, Denver, Colorado
                                 Montana Operations Office, Helena,
                                  Montana

Montana Department of            Permitting and Compliance Division, Air
Environmental Quality Program      and Waste Management Bureau
Offices Involved:                Enforcement Division, Helena, Montana

Audit Conducted by:              Erin Barnes
                                 Larry Dare
                                 Thomas Herrod
                                 Kim Victor
                                         March 28, 2001

MEMORANDUM

SUBJECT:	      Appropriate Violator Classifications and Timely Initial Enforcement Actions
               Would Strengthen Montana’s RCRA Enforcement Program
               Report No. 000762-2001-P-00004

FROM:	         Kimberly Victor
               Acting Audit Manager
               Denver Office

TO:	           Jack McGraw
               Acting Regional Administrator
               Region 8

        Attached is our report entitled, Appropriate Violator Classifications and Timely Initial
Enforcement Actions Would Strengthen Montana’s RCRA Enforcement Program. The report
includes recommendations to improve Montana’s Resource Conservation and Recovery Act
compliance monitoring and enforcement program, as well as Region 8's data in its oversight
inspection and enforcement information system. We discussed our findings with your staff and
Montana’s staff, issued a draft report, and held an exit conference with your staff on March 14,
2001, and with Montana’s staff on February 22, 2001. We summarized your comments in the
final report and included your complete response in Appendix I.

       We appreciate the cooperation your staff showed us and the assistance they provided
throughout the audit. The staff exhibited a genuine interest in working with us to identify ways to
improve Montana’s RCRA enforcement program and helped add value to this audit.


Action Required

        In accordance with the Environmental Protection Agency's (EPA) Order 2750, you, as the
action official, are required to provide this office with a written response within 90 days of the
final report date. For corrective actions planned, but not completed by the response date,
reference to specific milestone dates will assist us in deciding whether to close this report.

        We have no objection to the release of this report to any member of the public. This
report contains findings that the Office of Inspector General (OIG) has identified and corrective
actions OIG recommends. This audit report represents the opinion of OIG and the findings in this
report do not necessarily represent the final EPA position. Final determinations on matters in this
audit report will be made by EPA managers in accordance with established EPA audit resolution
procedures.

      If you have any questions, please call me at (303) 312-6629. Please refer to report
number 000762-2001-P-00004 on any correspondence.

Attachment
                       Appropriate Violator Classifications and Timely Initial Enforcement
                       Actions Would Strengthen Montana's RCRA Enforcement Program


                EXECUTIVE SUMMARY

INTRODUCTION
      The objective of the Resource Conservation and Recovery
                   Act (RCRA) is to ensure that hazardous waste is handled in
                   a protective manner. Congress intended for states to assume
                   primary responsibility for implementing hazardous waste
                   regulations with oversight from the federal government. As
                   part of the compliance monitoring and enforcement
                   component of a hazardous waste program, the
                   Environmental Protection Agency (EPA) and/or state staff
                   conduct inspections, take enforcement actions, and assess
                   penalties. To attain and maintain a high rate of compliance,
                   EPA and state RCRA programs should address the most
                   serious violators with timely, visible, and effective
                   enforcement actions. For this audit, we reviewed inspection
                   and enforcement actions for 47 out of 113 facilities with
                   violations identified during fiscal 1997 through 1999 to
                   determine whether Montana’s Department of Environmental
                   Quality (MDEQ) and EPA Region 8 took timely and
                   appropriate enforcement actions. Region 8 authorized
                   MDEQ for the RCRA base program. Therefore, MDEQ had
                   lead responsibility to issue permits, monitor compliance, and
                   enforce most of the significant RCRA requirements in
                   Montana. Region 8 had oversight responsibility for those
                   portions of RCRA that MDEQ received authorization.



OBJECTIVES	        Our overall objective was to determine whether EPA
                   Region 8's and Montana’s RCRA compliance monitoring and
                   enforcement program complied with the RCRA enforcement
                   response policy and the Region 8-MDEQ enforcement
                   agreement. We sought to answer the following specific
                   questions:

                   •	      Did violator classifications and enforcement actions
                           comply with EPA's hazardous waste enforcement
                           response policy?
                   •       Did enforcement actions return violators to compliance

                                    i                      Report No. 000762-2001-P-00004
                     Appropriate Violator Classifications and Timely Initial Enforcement
                     Actions Would Strengthen Montana's RCRA Enforcement Program


                         and was that return to compliance timely and
                         documented?
                    •	   Did penalty calculations comply with the RCRA civil
                         penalty policy and the State's penalty policy?
                    •	   Was accurate data recorded in the Resource
                         Conservation and Recovery Act Information System
                         (RCRIS)?



RESULTS IN BRIEF
   MDEQ did not always appropriately classify violators or
                    initiate timely enforcement actions in accordance with its
                    enforcement agreement with Region 8. MDEQ did not
                    appropriately classify violators in 9 of 47 cases. Also,
                    MDEQ initiated untimely enforcement actions in 15 of 16
                    formal enforcement cases. Additionally, in 13 of 15 cases
                    where MDEQ sought penalties against non-compliant
                    facilities, MDEQ’s penalty calculations did not comply with
                    state or federal policy. Finally, while MDEQ staff generally
                    recorded accurate data in RCRIS, the Department did not
                    consistently record penalty information into RCRIS, and
                    Region 8 staff did not adequately update RCRIS.

                    MDEQ’s inappropriate violator classifications, untimely
                    initial enforcement actions, and inconsistently documented
                    penalty decisions occurred because MDEQ did not always
                    utilize EPA guidance or adequately balance compliance
                    assistance with enforcement. MDEQ could have benefitted
                    from more effective case monitoring, a more collaborative
                    internal team approach, and adequately documenting its
                    RCRA activities in the facility files. As a result, Montana
                    facilities did not always return to compliance as quickly as
                    possible, and these delays could have increased the potential
                    for harm to human health and the environment.




                    We recommended that the Regional Administrator require


                                 ii                      Report No. 000762-2001-P-00004
                   Appropriate Violator Classifications and Timely Initial Enforcement
                   Actions Would Strengthen Montana's RCRA Enforcement Program


RECOMMENDATIONS	   MDEQ to comply with its new consolidated cooperative
                   enforcement agreement. The Regional Administrator also
                   should require that MDEQ escalate chronic or recalcitrant
                   facilities for formal enforcement action rather than continue
                   compliance assistance. Additionally, the Regional
                   Administrator should require MDEQ to fully calculate and
                   document its penalties against serious violators, as well as
                   adequately document the Department’s violator
                   classifications and a facility’s return to compliance. The
                   Regional Administrator should work with MDEQ to modify
                   its enforcement compliance information system for
                   prioritizing the Department’s enforcement requests and
                   monitoring case progress, and support MDEQ efforts in
                   implementing divisional cross-training and information-
                   sharing plans.



AGENCY AND STATE   Region 8 officials agreed with the findings and
COMMENTS AND       recommendations. Regional staff provided comments to
OIG EVALUATION     clarify portions of the report, and we have incorporated these
                   comments and modified the report as appropriate. We have
                   summarized the Region’s comments at the end of chapter 2
                   and have included its complete response in Appendix I.

                   MDEQ officials generally did not agree with our findings and
                   conclusions. We considered MDEQ’s comments and
                   modified the report as appropriate. We have summarized
                   MDEQ’s comments at the end of chapter 2.




                               iii                     Report No. 000762-2001-P-00004
                                               Appropriate Violator Classifications and Timely Initial Enforcement
                                               Actions Would Strengthen Montana's RCRA Enforcement Program


                                    TABLE OF CONTENTS
                                                                                                                     Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        i


CHAPTERS
1.	 INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1

         PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1

         BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            2

         SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           6

         PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      7


2.       MDEQ NEEDED TO MORE APPROPRIATELY CLASSIFY VIOLATORS
         AND INITIATE TIMELY ENFORCEMENT ACTIONS	 . . . . . . . . . . . . . . . . . . . . . .                             10

              ENFORCEMENT AGREEMENT REQUIREMENTS . . . . . . . . . . . . . . . . . .                                      10

              VIOLATOR CLASSIFICATIONS AND ENFORCEMENT DECISIONS 

                DID NOT ALWAYS FOLLOW POLICY . . . . . . . . . . . . . . . . . . . . . . . . .                            12

              INITIAL FORMAL ENFORCEMENT ACTIONS WERE NOT TIMELY . .                                                      15

              PENALTY CALCULATIONS DID NOT COMPLY WITH POLICY . . . . . .                                                 17

              REGION 8 RCRIS DATA ENTRY NEEDED IMPROVEMENT . . . . . . . . .                                              18

              IMPROVEMENTS NEEDED TO STRENGTHEN MDEQ'S RCRA

                ENFORCEMENT PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     19

              CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    33

              RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             34

              AGENCY AND STATE COMMENTS AND OIG EVALUATION . . . . . . . . .                                              35


EXHIBITS
1.    SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 39

2.    PRIOR AUDIT REPORTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         42

3.    VIOLATOR CLASSIFICATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                43

4-A. TIMELINESS OF VIOLATION DISCOVERY UNDER EPA’S 1987

        ENFORCEMENT RESPONSE POLICY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       46

4-B. TIMELINESS OF DECISIONS TO TAKE FORMAL ENFORCEMENT ACTIONS

        UNDER MONTANA’S 1999 ENFORCEMENT RESPONSE MANUAL . . . . . . . .                                                  47

4-C.	 TIMELINESS OF DECISIONS TO TAKE FORMAL ENFORCEMENT ACTIONS

        UNDER EPA’S 1996 ENFORCEMENT RESPONSE POLICY . . . . . . . . . . . . . . .                                        48

5.	   COMPARISON OF FORMAL ENFORCEMENT ACTIONS USING 1987, 1996,

        AND 2000 POLICIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   49




                                                            iv
                       Report No. 000762-2001-P-00004
                                               Appropriate Violator Classifications and Timely Initial Enforcement
                                               Actions Would Strengthen Montana's RCRA Enforcement Program


6.       HIGH PRIORITY VIOLATOR PENALTY CALCULATIONS THAT DID 

          NOT MEET POLICY REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52


APPENDICES
I.   AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54

II.  ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68

III. DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69





                                                             v                        Report No. 000762-2001-P-00004
           Appropriate Violator Classifications and Timely Initial Enforcement
           Actions Would Strengthen Montana's RCRA Enforcement Program


           CHAPTER 1
           INTRODUCTION

PURPOSE
   Protecting the public and the environment from risks posed
           by violations of hazardous waste requirements is basic to
           the Environmental Protection Agency’s (EPA) mission. One
           of EPA’s goals in its 1997 Strategic Plan is to ensure full
           compliance with laws intended to protect human health and
           the environment. The Resource Conservation and Recovery
           Act (RCRA) was designed to protect the public and the
           environment from risks associated with improper
           management of hazardous wastes. To attain and maintain a
           high rate of compliance, EPA and state RCRA programs
           should address the most serious violators with timely,
           visible, and effective enforcement actions. Our overall
           objective was to determine whether EPA Region 8's and
           Montana’s RCRA compliance monitoring and enforcement
           program complied with the RCRA enforcement response
           policy and the Region 8-Montana enforcement agreement.
           We sought to answer the following specific questions:

           •   Did violator classifications and enforcement actions
               comply with EPA's hazardous waste enforcement
               response policy?

           •   Did enforcement actions return violators to compliance
               and was that return to compliance timely and
               documented?

           •   Did penalty calculations comply with the RCRA civil
               penalty policy and the State's penalty policy?

           •   Was accurate data recorded in the Resource
               Conservation and Recovery Act Information System
               (RCRIS)?




                       1                       Report No. 000762-2001-P-00004
                                        Appropriate Violator Classifications and Timely Initial Enforcement
                                        Actions Would Strengthen Montana's RCRA Enforcement Program


BACKGROUND                              Improper management of hazardous waste poses a serious
                                        threat to human health and the environment. Congress
                                        enacted RCRA in 1976 which established, under Subtitle C,
                                        a framework to manage hazardous wastes from generation
                                        to disposal. The objective of RCRA’s Subtitle C program is
                                        to ensure that hazardous waste is handled in a protective
 EPA's Credible Deterrent Goal
                                        manner. Most facilities that treat, store, and dispose of
 Within its 1997 Strategic Plan,        hazardous waste must have permits.
 EPA established a goal to ensure
 full compliance with laws intended
 to protect human health and the
 environment. This goal includes
                                        Congress intended for the states to assume primary
 the following EPA objectives:          responsibility for implementing hazardous waste regulations
 •	   Identify and reduce significant
                                        with oversight from the federal government. To become
      non-compliance in high            authorized to implement and enforce hazardous waste
      priority program areas, while
      maintaining a strong
                                        regulations, a state must develop and submit for approval a
      enforcement presence in all       hazardous waste program that is equivalent to and
      regulatory program areas, and
                                        consistent with the federal program and provides adequate
 •	   Promote the regulated             enforcement. However, EPA retains full enforcement
      community’s voluntary
      compliance with
                                        authority and oversight responsibilities.
      environmental requirements
      through compliance
      incentives and assistance
                                        In Region 8, much of the hazardous waste program under
      programs.                         RCRA is administered by authorized states, while the
                                        Region retains significant responsibilities for assuring
                                        effective programs. Region 8 and its six states jointly
                                        developed a standard operating procedure for overseeing
                                        state hazardous waste compliance monitoring and
                                        enforcement programs. The standard operating procedure
                                        document includes policy statements, identifies program
  Compliance Monitoring and             criteria subject to oversight, defines performance levels for
  Enforcement Program Goals
   for Region 8 and Its States          those criteria, and designates corresponding oversight levels
   as stated in the joint standard      and procedures.
        operating procedure

 •	   To detect and deter               In fiscal 1999, Region 8 introduced its Uniform
      violations through
      inspections and                   Enforcement Oversight System, designed to evaluate state
      enforcement actions.              enforcement and compliance performance. The objective of
 •	   To promote compliance with        this new system is to strengthen state programs and reward
      hazardous waste                   strong programs with reduced oversight. The system is
      requirements to protect
      public health and the             composed of both quantitative scoring and narrative
      environment from future           feedback. In fiscal 1999, Region 8 began using the results
      violations.
                                        of the oversight system to conduct joint annual planning
                                        with states and to manage the Region’s limited oversight
                                        resources.

                                                    2                       Report No. 000762-2001-P-00004
                     Appropriate Violator Classifications and Timely Initial Enforcement
                     Actions Would Strengthen Montana's RCRA Enforcement Program


                     The goal of the RCRA compliance monitoring and
                     enforcement program is to attain and maintain a high rate of
                     compliance by the regulated community. To accomplish
                     this goal, EPA and/or state staff conduct inspections, take
                     enforcement actions, and assess penalties. An appropriate
                     enforcement action will help to achieve a timely return to
                     compliance and serve as a deterrent by eliminating any
                     economic advantage received by a violator through non-
                     compliance. Montana Department of Environmental
                     Quality (MDEQ) officials indicated that they did not adopt
                     EPA’s goals, and rather had separate goals for its hazardous
                     waste inspection and enforcement programs.

Enforcement Action   EPA’s Enforcement Response Policy discusses timely and
                     appropriate RCRA enforcement actions. EPA issued the
                     first enforcement response policy in December 1984,
                     modified the policy in December 1987, and revised it again
                     in 1996. The enforcement response policy establishes the
                     criteria for determining appropriate types of enforcement
                     responses and violator classifications to ensure consistent
                     RCRA enforcement nationwide. The 1996 enforcement
                     response policy replaced all prior criteria.

                     The 1996 enforcement response policy classifies violators
                     into two categories: significant noncompliers and other
                     secondary violators. The 1996 enforcement response policy
                     defines significant noncompliers as,

                             ...those facilities which have caused actual
                             exposure or a substantial likelihood of
                             exposure to hazardous waste or hazardous
                             waste constituents; are chronic or
                             recalcitrant violators; or deviate from RCRA
                             statutory or regulatory requirements.

                     In contrast, the 1987 enforcement response policy
                     designated three classifications of violators: high priority
                     violator, medium priority violator, and low priority violator.
                     The definition of a high priority violator was essentially the
                     same as the definition of a significant noncomplier in the
                     1996 enforcement response policy. In this report, we will

                                 3                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


generally use the term high priority violator, rather than the
1996 enforcement response policy term significant
noncomplier because MDEQ used the definitions in the
1987 enforcement response policy.

In addition to categorizing a facility, the 1987 enforcement
response policy also classifies individual facility violations
into one of two classes – Class I or II. Class I violations are
the more serious of the two and consist of deviations from
regulations, permit conditions, or other binding agreements
that could result in the failure to assure proper treatment,
storage, disposal, or emergency cleanup of hazardous waste
or prevent and detect hazardous waste releases. Class II
violations are those that do not meet Class I criteria. The
enforcement response policy defines a chronic or
recalcitrant facility as one regularly found to have many
Class I or II violations (even if minor in themselves) or one
that fails to quickly correct previous violations.

An enforcement response may be either a formal or informal
action:

        (1)	     Formal enforcement may take the form of an
                 administrative order, civil lawsuit, or criminal
                 lawsuit. A monetary penalty may be
                 imposed. According to EPA's policy, formal
                 enforcement is appropriate for high priority
                 violators.

        (2)	     An informal enforcement response is the
                 minimally appropriate enforcement action for
                 a violator that does not meet the significant
                 noncomplier or high priority violator
                 definition.

An informal enforcement action generally involves
notification and does not include economic sanctions.
However, a facility that does not return to compliance
following an informal enforcement response should be
reclassified as a high priority violator and receive a formal
enforcement response and penalty.

            4                       Report No. 000762-2001-P-00004
                                         Appropriate Violator Classifications and Timely Initial Enforcement
                                         Actions Would Strengthen Montana's RCRA Enforcement Program


                                         Region 8 maintains a field office in Helena, Montana, which
                                         implements and oversees the Region’s programs and
                                         strategic priorities throughout Montana. Region 8's Helena
                                         office includes three staff who, in addition to other duties,
                                         oversee MDEQ’s RCRA compliance monitoring and
                                         enforcement program.

                                         Region 8 authorized MDEQ for the RCRA base program.
                                         Therefore, MDEQ had lead responsibility to issue permits
                                         (except for corrective action), monitor compliance, and
                                         enforce most of the significant RCRA requirements in
                                         Montana. Region 8 had oversight responsibility for those
                                         portions of RCRA that Montana received authorization.
                                         MDEQ was not yet authorized for RCRA corrective action
                                         or the land disposal restriction provisions, and was not
                                         authorized to implement RCRA in Indian country. Until
                                         December 26, 2000, when the Region authorized MDEQ
                                         for the corrective action component of RCRA, Region 8's
                                         Helena office had the lead for implementing corrective
                                         action. Region 8's Helena office also implemented all
                                         provisions of RCRA in Indian country.

MDEQ Organization                        In Montana, RCRA inspections and enforcement actions are
                                         conducted by MDEQ staff. Staff in the air and waste
                                         management bureau within the permitting and compliance
                                         division conduct RCRA inspections and informal
      MDEQ Hazardous Waste
         Program Goals                   enforcement, while staff in the enforcement division conduct
                                         formal enforcement actions. MDEQ was created in 1995
 To assure regulatory compliance by
 conducting regular comprehensive        through a reorganization of three different environmental
 compliance evaluation inspections at    and natural resource agencies. Prior to the reorganization,
 those installations that offer the
 greatest threat to public health and    compliance staff were directly responsible for working with
 the environment.                        legal staff to develop enforcement cases, determine
 To provide technical and compliance     penalties, and achieve final case resolution. Following the
 assistance to hazardous waste           reorganization, compliance staff request formal enforcement
 handlers in order to maintain and
 enhance regulatory compliance.          actions through MDEQ’s enforcement division.
 To initiate enforcement actions which
                                         Enforcement division staff are responsible for determining
 are commensurate with the degree of     penalty amounts and proceeding with formal enforcement
 non-compliance and which considers
 a violator’s past compliance history.
                                         actions.




                                                     5                       Report No. 000762-2001-P-00004
                        Appropriate Violator Classifications and Timely Initial Enforcement
                        Actions Would Strengthen Montana's RCRA Enforcement Program


                        MDEQ's Enforcement Response Manual, dated October 25,
                        1999, identifies the common protocols, procedures, and
                        forms used by MDEQ in fulfilling its compliance assistance
                        and enforcement responsibilities. The manual states that
                        MDEQ's specific enforcement responses and time frames
                        should follow those negotiated in the State’s enforcement
                        agreement with Region 8. MDEQ’s enforcement response
                        manual states that the enforcement division must receive a
                        completed and approved enforcement request from program
                        staff prior to initiating a formal enforcement action.

Enforcement Agreement   The RCRA enforcement agreement between Region 8 and
                        Montana, dated December 1993, cites the timely and
                        appropriate enforcement criteria contained in the 1987
                        enforcement response policy as the guidance that MDEQ
                        should use for its RCRA compliance monitoring and
                        enforcement program. MDEQ and Region 8 did not
                        renegotiate a new agreement to incorporate timely and
                        appropriate enforcement criteria contained in the revised
                        1996 enforcement response policy. MDEQ and Region 8
                        continued to use the 1993 enforcement agreement until the
                        two agencies signed a new agreement in 2000.

                        In September 2000, both agencies signed a consolidated
                        cooperative enforcement agreement that incorporated five
                        different programs, including RCRA, into one multi-media
                        enforcement agreement. This 4-year agreement included
                        new time frames and criteria different from those in the
                        1987 and 1996 enforcement response policies, and in
                        MDEQ’s 1993 enforcement agreement. This pilot
                        agreement standardized terminology and created a uniform
                        timeline for all five media programs.



SCOPE AND               We performed our audit in accordance with Government
METHODOLOGY             Auditing Standards (1994 Revision) issued by the
                        Comptroller General of the United States. We conducted
                        our fieldwork from February through November 2000.



                                    6                       Report No. 000762-2001-P-00004
              Appropriate Violator Classifications and Timely Initial Enforcement
              Actions Would Strengthen Montana's RCRA Enforcement Program


              We performed our fieldwork at MDEQ and Region 8.
              We reviewed case files for 47 out of 113 facilities in
              Montana that had violations identified in RCRIS during
              fiscal 1997 through 1999 to determine whether MDEQ and
              Region 8 officials took timely and appropriate enforcement
              actions. We discussed the facility files and other program
              activities with MDEQ and Region 8 staff and evaluated the
              internal controls over the inspection and enforcement
              processes. Because Region 8 authorized MDEQ for the
              RCRA base program, MDEQ led the inspections and
              enforcement actions at the 47 facilities and Region 8 acted
              in an oversight role. We did not include any facilities in
              Indian country as part of our scope.

              Although we used the 1993 enforcement agreement as the
              primary criteria document, we also evaluated MDEQ's
              performance against the 1996 enforcement response policy,
              MDEQ's 1995 penalty policy, MDEQ's 1999 enforcement
              response manual, and the 2000 consolidated cooperative
              enforcement agreement. We recognize that Region 8 did
              not require MDEQ to comply with the 1996 policy.
              However, we wanted to analyze how timely MDEQ would
              have been had it used the more lenient time frames in the
              1996 policy. In addition, we wanted to evaluate how timely
              MDEQ would have been if it tried to comply with the new
              time frames in its 2000 enforcement agreement.

              We did not evaluate controls over RCRIS, although we
              used information from this national data system in our audit.
              See Exhibit 1 for details on our scope and methodology.



PRIOR AUDIT   The Office of Inspector General (OIG) issued two prior
COVERAGE      reports related to Region 8 RCRA enforcement:

              •	 The most recent report, dated September 31, 1991,
                 examined the Region's administration of state RCRA
                 enforcement activities. The audit found that Colorado,
                 Utah, and Montana generally had not implemented
                 strong enforcement programs or enforced penalties

                          7                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


    because Region 8 had not developed an oversight
    program and the states were hesitant to take strong
    enforcement actions against violators for fear of losing
    business. In our current audit, we did not find that
    Montana hesitated to take strong enforcement actions
    due to a fear of losing business. However, as discussed
    in this report, we found other reasons why Montana did
    not appropriately classify violators or initiate timely
    enforcement actions.

•	 The earlier report, dated September 13, 1988, examined
   Region 8's controls over compliance monitoring of
   RCRA enforcement consent agreement provisions.
   While this report specifically addressed the tracking and
   control of RCRA enforceable consent agreements, it
   reported that some RCRA program violators were
   either not responding both timely and adequately, or
   there was no clearly documented evidence of their
   compliance with consent agreements.

Both the 1991 and 1988 reports recommended tighter
controls within Region 8's RCRA program and more
thorough oversight of state RCRA compliance monitoring
and enforcement programs. As a result of the audits,
Region 8, with its states, developed a standard operating
procedure for hazardous waste compliance monitoring and
enforcement programs to maximize consistency and
program effectiveness across the Region.

In addition, OIG issued numerous reports between 1998
and 1999 on RCRA significant noncomplier identification in
other regional and state offices. Audits conducted in
Regions 1, 3, 5, 7, and 10 examined the effectiveness of
significant noncomplier identification in those regions and in
the states of Rhode Island, Virginia, Illinois, Nebraska, and
Washington, respectively. The audits typically found that:
(1) state enforcement programs were inconsistent with EPA
policies, (2) facilities were not always correctly classified,
(3) states did not impose strong penalties, (4) state RCRA
files did not contain adequate documentation on return to
compliance, (5) states did not always perform followup

            8                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


inspections where appropriate, (6) states took inappropriate
enforcement actions, and (7) states did not enter accurate
and complete RCRIS data.

See Exhibit 2 for a complete listing of prior audits.




            9                       Report No. 000762-2001-P-00004
                   Appropriate Violator Classifications and Timely Initial Enforcement
                   Actions Would Strengthen Montana's RCRA Enforcement Program


                    CHAPTER 2

MDEQ NEEDED TO MORE APPROPRIATELY CLASSIFY VIOLATORS
      AND INITIATE TIMELY ENFORCEMENT ACTIONS

                   MDEQ did not always appropriately classify violators or
                   initiate timely enforcement actions in accordance with its
                   enforcement agreement with Region 8. MDEQ’s untimely
                   initial enforcement actions did not help return facilities to
                   compliance in a timely manner. Additionally, MDEQ did
                   not always consider economic benefit or multi-day
                   components in its penalty calculations. These conditions
                   occurred because MDEQ did not always utilize EPA
                   guidance or adequately balance compliance assistance with
                   enforcement. Also, MDEQ could have benefitted from
                   more effective case monitoring and a more collaborative
                   internal team approach. We also found that MDEQ staff
                   did not adequately document their RCRA activities in the
                   facility files. While MDEQ staff generally recorded
                   accurate data in RCRIS, the Department did not
                   consistently record penalty information into RCRIS, and
                   Region 8 staff did not adequately update RCRIS. As a
                   result, Montana facilities did not always return to
                   compliance as quickly as possible, and these delays could
                   have increased the potential for harm to human health and
                   the environment.



ENFORCEMENT        The 1993 RCRA enforcement agreement between Montana
AGREEMENT          and Region 8 authorized MDEQ to take timely and
REQUIREMENTS       appropriate enforcement action against all persons in
                   violation of the Montana Hazardous Waste Act. The 1993
                   enforcement agreement incorporated the enforcement
                   criteria in EPA’s 1987 enforcement response policy.
                   Region 8 and MDEQ did not update the 1993 agreement to
                   include the revised enforcement criteria in EPA's 1996
                   policy. MDEQ considered the 1993 enforcement agreement
                   time frames as MDEQ’s goals for good performance and as
                   guidelines for reviewing progress in individual cases. The
                   1993 agreement specified that

                              10                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


timeliness would be case-specific and that MDEQ would
document any deviation from established time frames.

The 1987 and 1996 enforcement response policies require
that violation discovery and the decision to take formal
enforcement action against a facility must be made within 45
and 90 days, respectively, of the facility’s “evaluation date,”
or date it was initially inspected. Beyond this similarity,
significant differences exist between the 1987 and 1996
enforcement response policies.

   Key points in the 1987 enforcement response policy:
   º	
   º      45 days from inspection to violation discovery and
          determination of significance
   º	
   º      90 days from violation discovery to either initiate
          formal administrative action or refer to judicial
          authority

   Key points in the 1996 enforcement response policy:
   ö	
   ö      90 days from evaluation date to determine whether
          violations are significant enough to warrant a formal
          enforcement response
   ö	
   ö      If informal enforcement action does not return a facility
          to compliance within 90 days from the evaluation date,
          formal enforcement action must be initiated
   ö
   ö	     180 to 300 days maximum, once a violation is
          discovered, to issue a final order to return the facility to



In addition, MDEQ’s enforcement response manual includes
time frames that overlay those contained in the 1987
enforcement response policy. For example, MDEQ’s
manual states that enforcement requests should be
submitted for approval within 90 days of first discovery of
the violations. MDEQ staff must complete an enforcement
request in order to initiate a formal enforcement action.
Though dated in 1999, MDEQ officials stated that they
used the enforcement request process outlined in the
Department’s manual during the period of our review.

MDEQ’s 1995 Penalty Policy for the Hazardous Waste
Program mandates the recapture of any significant
economic benefit the violator may have gained from non-

           11                        Report No. 000762-2001-P-00004
                      Appropriate Violator Classifications and Timely Initial Enforcement
                      Actions Would Strengthen Montana's RCRA Enforcement Program


                      compliance and that penalties appropriately capture the
                      gravity of the violation committed. When calculating the
                      penalty, the policy requires MDEQ to complete two
                      separate calculations:

                      •	      The first calculation determines an appropriate
                              amount to assess in the administrative order or other
                              action.

                      •	      The second calculation explains and documents
                              MDEQ's process to develop a final agreed-upon
                              penalty.

                      EPA’s RCRA civil penalty policy states that the purpose of
                      the policy is to ensure that RCRA civil penalties are
                      assessed in a fair and consistent manner, penalties are
                      appropriate for the gravity of the violation, economic
                      incentives for non-compliance are eliminated, penalties are
                      sufficient to deter persons from committing violations, and
                      compliance is quickly achieved and maintained. The RCRA
                      civil penalty policy further notes that,

                              ...in order to support the penalty proposed in
                              the complaint, enforcement personnel must
                              include in the case file an explanation of how
                              the penalty amount was calculated.

                      Both policies establish requirements to ensure that penalties
                      are consistent with the goals of: deterrence, fair and
                      equitable treatment of the regulated community, and swift
                      resolution of environmental problems.



VIOLATOR              MDEQ did not always appropriately classify violators or
CLASSIFICATIONS AND   make timely decisions whether to take formal enforcement
ENFORCEMENT           actions. Violation discovery helps MDEQ staff determine
DECISIONS DID NOT     violator classifications and conclude whether to take formal
ALWAYS FOLLOW         enforcement action against a facility.
POLICY


                                 12                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


Despite EPA’s 1987 enforcement response policy
requirements, MDEQ did not appropriately classify facilities
in 9 of the 47 files reviewed. Many of the facilities
appeared to be chronic or recalcitrant violators. Examples
of two cases follow in Table 2-1:

            Table 2-1 – Violators Inappropriately Classified

 Facility                              Problem
  Name

  MT14        Never Classified:
              This large oil refinery was never classified as a high
              priority violator despite repeated Class I and II
              violations during nine inspections between 1992 and
              1999. The facility’s violations included improper
              management of its storage areas, improper management
              of accumulation areas, unlabeled used oil containers,
              uncovered containers, and a cracked regulated unit cap.

  MT27        Not Classified Timely:
              Before being classified as a high priority violator on
              08/24/99, this train maintenance facility had repeated
              Class I and II violations during four inspections between
              1992 and 1999. The facility’s violations included
              mislabeled drums and soil contaminated by used oil.
              The enforcement request, reclassifying the facility to
              high priority violator status, listed 20 repeat violations
              between 1990 and 1999 and noted that the facility had
              been recalcitrant since 1990. MDEQ staff stated that the
              enforcement request for MT27 should have been more
              clearly written to indicate that the facility finally passed
              the high priority violator threshold in 1999.


See Exhibit 3 for a complete list of all 9 inappropriate
violator classifications.

MDEQ did not always make timely violation discoveries or
decisions to take formal enforcement actions in accordance
with EPA’s 1987 policy. Of the 47 files reviewed, MDEQ
took formal enforcement actions for 16 facilities. In most
of the 16 cases, MDEQ made timely violation discoveries.
However, in 5 of the 16 enforcement actions, MDEQ’s
timeliness of violation discovery exceeded the 45-day
requirement specified in EPA’s 1987 enforcement response

             13                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


policy. For example, 170 days elapsed between MT39's
inspection and MDEQ’s date of violation discovery.
Similarly, 88 days elapsed between MDEQ’s inspection at
the MT19 facility and the date MDEQ discovered the
violations at the site. See Exhibit 4-A for details on all 16
formal enforcement actions under EPA’s 1987 enforcement
response policy.

MDEQ’s decisions to take formal enforcement action also
did not always meet time frames included in MDEQ’s 1999
enforcement response manual. MDEQ’s enforcement
response manual states that in order to initiate an
enforcement action, an enforcement request must be
submitted within 90 days of first discovery of the violations.
 In 5 of the 16 formal enforcement actions, MDEQ’s
decision to complete enforcement requests exceeded the 90-
day requirement. For example, 240 days elapsed between
MDEQ’s violation discovery at the MT42 facility and the
date of the enforcement request. Exhibit 4-B illustrates the
timeliness of MDEQ’s decisions to take formal enforcement
actions based on the Department’s 1999 enforcement
response manual process.

Additionally, MDEQ's decisions to take formal enforcement
action also exceeded time frames in EPA's 1996
enforcement response policy. We recognize that Region 8
did not require MDEQ to comply with the 1996 policy.
However, we wanted to analyze how timely MDEQ would
have been had it used the more lenient time frames in the
1996 policy. The 1996 enforcement response policy
requires that the decision to take formal enforcement action
must be made within 90 days of the initial inspection or
evaluation. In 7 of the 16 formal enforcement actions,
MDEQ’s decision to take formal enforcement exceeded the
90-day requirement. For example, 165 days elapsed
between MDEQ’s inspection at the MT19 facility and the
date of MDEQ’s enforcement request. Exhibit 4-C
illustrates the timeliness of MDEQ’s decisions to take
formal enforcement actions based on EPA’s 1996
enforcement response policy.


           14                       Report No. 000762-2001-P-00004
                   Appropriate Violator Classifications and Timely Initial Enforcement
                   Actions Would Strengthen Montana's RCRA Enforcement Program


INITIAL FORMAL     MDEQ initiated untimely formal enforcement actions in 15
ENFORCEMENT        of 16 cases. MDEQ’s initial enforcement response ranged
ACTIONS WERE NOT   from 40 days under to 347 days beyond the time frames
TIMELY             required in both the 1987 and 1996 enforcement response
                   policies. On average, it took MDEQ staff 229 days from
                   violation discovery to initiation of formal enforcement
                   action at each of the 16 facilities. Even under the new 2000
                   consolidated cooperative enforcement agreement that
                   provides more lenient time frames, MDEQ’s actions to
                   return facilities to compliance would have been untimely in
                   9 of 15 instances. As a result of untimely initial
                   enforcement actions, MDEQ did not compel facilities to
                   return to compliance in a rapid or expeditious manner.

                   Following are two examples in which MDEQ’s formal
                   enforcement actions did not comply with 1987 enforcement
                   response policy time frames:

                           TABLE 2-2 – Untimely Formal Enforcement Actions
                    Facility        MDEQ Activities              1987 Enforcement
                     Name                                         Response Policy
                                                                 90 day requirement

                    MT19       - 07/30/99 violation                    234 days
                                 discovery
                               - 03/21/00 demand letter

                    MT39       - 02/12/99 violation                    239 days
                                 discovery
                               - 10/08/99 administrative
                                 order


                   The 1993 enforcement agreement allowed the Department
                   to exceed standard timelines under some circumstances.
                   The circumstances that could possibly impact or alter EPA
                   established time frames include the type of violation,
                   complex negotiation, investigation, testing, production and
                   analysis of evidence, and unique questions of law requiring
                   additional time for case analysis. MDEQ stated that each of
                   the cases that exceeded the time frames resulted from
                   unique circumstances and thus the standard 1993
                   enforcement agreement timelines did not apply. For
                   example, MDEQ stated that for facility MT19, Region 8's

                               15                      Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


delayed issuance of a variance compromised MDEQ’s
initiation of formal enforcement and resolution of the
violation. However, Region 8’s issuance of a variance
should not have impeded MDEQ’s efforts in taking timely
enforcement action at facility MT19. Region 8 oversight
inspectors worked very closely with MDEQ staff to ensure
that MDEQ officials had the same information as Region 8
regarding the status of MT19's variance, and that MDEQ’s
actions were not affected by Region 8’s issuance of a
variance.

MDEQ did not always document the reasons for deviations
from the timelines in the case files. While the 1993
enforcement agreement allowed MDEQ to exceed time
frames under some circumstances, the agreement also states
that “reasons for deviations from timelines will be
documented by the lead agency.” In addition, the 1987
enforcement response policy states where time frames will
be exceeded due to case-specific circumstances, the states
and regions must monitor case development. Additionally,
where timely enforcement action will not be feasible, the
states and regions must be prepared to justify the delay and
develop an alternative schedule for case resolution to which
they closely adhere. MDEQ did not develop alternative
schedules for those cases that exceeded the time frames in
the policy.

Region 8's end-of-year compliance monitoring and
enforcement reviews also identified problems with MDEQ’s
timeliness. For example, in the Region’s fiscal 1998 review,
the reviewer recommended that MDEQ take steps to
improve its ability to issue initial formal actions on a more
timely basis. The reviewer also stated that the actions filed
during fiscal 1998 always exceeded the time allowed by the
1993 enforcement agreement by periods ranging from 15
days to 112 days and similar conditions occurred for cases
reviewed in fiscal 1996 and 1997.

See Exhibit 5 for a complete list of the 16 formal
enforcement cases. Exhibit 5 compares MDEQ’s actions
against the 1987 enforcement response policy as well as the

           16                       Report No. 000762-2001-P-00004
                                   Appropriate Violator Classifications and Timely Initial Enforcement
                                   Actions Would Strengthen Montana's RCRA Enforcement Program


                                   1996 enforcement response policy and 2000 consolidated
                                   cooperative enforcement agreement.



PENALTY                            In 13 of 15 cases where MDEQ sought penalties against
CALCULATIONS DID                   non-compliant facilities, the penalty calculations did not
NOT COMPLY WITH                    comply with state or federal policy. Both Montana’s and
POLICY                             EPA’s RCRA penalty policies require well documented
                                   penalty calculations that capture the gravity of the violation
                                   committed by a high priority violator and eliminate the
     MDEQ Penalty Policy           economic incentives of non-compliance. Both policies state
       Requirements                that economic benefit should be calculated even if it is later
                                   found to be negligible. For example, the following cases
•	      Violations involving       illustrate where MDEQ did not calculate a penalty as
        the management of
        hazardous waste            required by the penalty policies:
        should reflect the
        probability that the                  TABLE 2-3 – Penalty Calculations Inadequate
        violation could have          Facility                     MDEQ Penalty Activities
        resulted in a release of       Name
        hazardous waste.
•	      The Department              MT20              MDEQ classified this lumber facility as a high
        should explain and                            priority violator for unlawfully disposing of wood
        document the process                          treating solution without a permit. MDEQ did not
        by which it arrived at                        assess a penalty citing that the owner had an inability
        the penalty figure.                           to pay, although the file showed that the facility
•	      Penalties should                              owner could pay a maximum penalty of $12,980.
        recapture any
        economic benefit the        MT39              MDEQ classified this lumber facility as a high
        violator accrues as a                         priority violator for numerous violations, including
        result of non-                                operating an unpermitted disposal facility. MDEQ
        compliance.                                   did not assess a penalty. MDEQ officials stated that
                                                      they issued a cleanup order for this facility, not a
                                                      penalty order.

                                    MT41              MDEQ classified this furniture refinishing facility as
                                                      a high priority violator for a direct release of wood
                                                      stripping solvents to the groundwater under the
                                                      facility. MDEQ did not assess a penalty because it
                                                      determined that the owner had an inability to pay.
                                                      However, Montana’s penalty policy states that ability
                                                      to pay should be used to adjust a penalty only after
                                                      making a full penalty calculation.




                                                 17                       Report No. 000762-2001-P-00004
                    Appropriate Violator Classifications and Timely Initial Enforcement
                    Actions Would Strengthen Montana's RCRA Enforcement Program


                    MDEQ officials stated that they generally considered
                    economic benefit in all penalty assessments but they did not
                    always place written documentation of the economic benefit
                    calculation in the case file. In 12 of the 13 penalty cases,
                    MDEQ did not have documentation supporting that it either
                    considered or calculated economic benefit or multi-day
                    components.

                    See Exhibit 6 for a complete list of the 13 cases where
                    MDEQ’s penalty calculations did not comply with state or
                    federal policy.



REGION 8 RCRIS      Region 8 staff did not adequately update RCRIS to reflect
DATA ENTRY NEEDED   their facility inspection and enforcement activities. For
IMPROVEMENT         example, Region 8 oversight inspectors did not input case
                    settlement data into RCRIS for the MT02 facility, or
                    oversight inspection information for the MT19 facility.
                    Region 8 guidance emphasized that RCRIS was the
                    mechanism for measuring case progress. Region 8
                    generates RCRIS reports based on data entered by the
                    Region and its six states, and EPA national offices examine
                    RCRIS data for oversight purposes. Region 8 staff
                    acknowledged their RCRIS problems and indicated they
                    needed additional RCRIS training.

                    MDEQ staff generally recorded accurate data in RCRIS,
                    and the State’s files contained supporting documentation for
                    RCRIS activities. However, MDEQ staff did not
                    consistently record penalty information in RCRIS. MDEQ
                    staff responsible for RCRIS data entry acknowledged their
                    inconsistencies, and stated that they have taken steps to
                    improve their data entry of penalty information. MDEQ
                    staff also recognized the importance of timely and accurate
                    RCRIS data entry for EPA’s national reporting. Finally,
                    MDEQ officials stated that the new RCRIS enterprise-wide
                    database should make data entry more frequent and
                    accurate.



                               18                       Report No. 000762-2001-P-00004
                         Appropriate Violator Classifications and Timely Initial Enforcement
                         Actions Would Strengthen Montana's RCRA Enforcement Program


IMPROVEMENTS             MDEQ’s inappropriate violator classifications, untimely
NEEDED TO                initial enforcement actions, and inconsistently documented
STRENGTHEN MDEQ’S        penalty decisions occurred because MDEQ did not always
RCRA ENFORCEMENT         utilize EPA guidance or adequately balance compliance
PROGRAM                  assistance with enforcement requirements. MDEQ also
                         could have benefitted by effectively monitoring case
                         progress and implementing a more collaborative internal
                         team approach in case management. In addition, MDEQ
                         staff did not adequately document their RCRA activities in
                         the facility inspection and enforcement files. As a result,
                         Montana facilities did not always return to compliance as
                         quickly as possible, and these delays could have increased
                         the potential for harm to human health and the environment.


MDEQ Needed to Use EPA   MDEQ and Region 8 did not update their 1993 RCRA
Guidance                 enforcement agreement to incorporate EPA's 1996
                         enforcement response policy. During fiscal 1997 through
                         1999, MDEQ operated, and Region 8 evaluated MDEQ,
                         under the 1993 RCRA enforcement agreement. The 1993
                         enforcement agreement references timely and appropriate
                         criteria as defined in the 1987 enforcement response policy.
                         Although MDEQ agreed to use the criteria in the 1987
                         policy, MDEQ enforcement division staff claimed EPA's
                         policy established unrealistic time frames and stated they did
                         not comply with them. MDEQ staff further indicated that
                         each case must be evaluated individually since the time
                         frames in EPA’s policy could not be applied to many
                         facilities in Montana. In addition, MDEQ enforcement staff
                         stated that tracking and meeting out-of-date, program-
                         specific time frames was not a priority during negotiations
                         of the 2000 consolidated cooperative enforcement
                         agreement. MDEQ staff explained that both MDEQ and
                         Region 8 recognized that MDEQ's compliance with these
                         policies was not likely.

                         Region 8 enforcement officials said other Region 8 states
                         incorporated the 1996 enforcement response policy criteria
                         without drafting new agreements between the states and
                         Region 8. However, Region 8 did not require MDEQ to
                         incorporate the 1996 enforcement response policy criteria

                                    19                       Report No. 000762-2001-P-00004
                           Appropriate Violator Classifications and Timely Initial Enforcement
                           Actions Would Strengthen Montana's RCRA Enforcement Program


                           into the State’s RCRA compliance monitoring and
                           enforcement program. Region 8 stated that Montana’s
                           1997 legislature enacted the Voluntary Environmental Audit
                           Law, which raised serious questions within Region 8
                           regarding Montana’s continued ability to enforce its own
                           environmental laws. Region 8 was not willing to formally
                           update the enforcement agreement until Region 8 and
                           Montana resolved the issue of enforceability. In December
                           1999, Region 8 and Montana resolved the issue of
                           enforceability and signed a memorandum of understanding.
                           Region 8 also added that since the 1996 policy was more
                           lenient than the 1987 policy in its enforcement timeline, the
                           Region questioned whether it would have been beneficial to
                           adopt the 1996 policy.

                           MDEQ’s director stated that MDEQ focused its efforts on
                           developing a new consolidated cooperative enforcement
                           agreement as part of a pilot effort approved by EPA.
                           MDEQ staff stated that the time frames in the new
                           agreement contained more realistic targets than those in the
                           enforcement response policies. However, as depicted in
                           Exhibit 5, had MDEQ applied the new agreement’s time
                           frames for the 16 facilities with formal enforcement actions,
                           MDEQ still would have been untimely in 10 of the 16
                           instances.

Better Balance Needed      MDEQ needed to better balance when it applied compliance
Between Compliance         assistance versus enforcement. MDEQ focused on
Assistance and             compliance assistance when it determined violator
Enforcement                classifications and calculated penalties. MDEQ's
                           enforcement response manual states:

                                   The initial response to many violations will
                                   be to provide compliance assistance. If a
                                   person ignores the Department’s compliance
                                   assistance efforts and remains out of
                                   compliance or a violation is significant, an
                                   enforcement action may be appropriate.


Violator Classifications   In 9 of 47 instances, MDEQ gave facilities numerous

                                      20                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


opportunities to address repeated similar violations rather
than classify the facilities as high priority violators. The
1987 enforcement response policy lists four factors to
consider when classifying a facility as a high priority
violator: (1) a handler who has caused actual exposure, or
substantial likelihood of exposure to hazardous waste or
hazardous constituents; (2) chronic or recalcitrant handlers
(this includes handlers who are regularly found to have
many Class I or Class II violations); (3) a handler who
deviates from the terms of a permit, order, or decree by not
meeting requirements in a timely manner and/or by failing to
perform work as required by terms of permits, orders, or
decrees; or (4) a handler who substantially deviates from
RCRA statutory or regulatory requirements.

MT05, a large facility, had repeated Class II violations,
including used oil spills, during its 1996 and 1998
inspections. However, MDEQ did not classify the facility as
a high priority violator following the 1998 inspection.
MDEQ staff said MT05’s small releases pertained to
container management and that their response corresponded
to the gravity of the spills. However, we agree with Region
8 oversight inspectors who said that any more than one
attempt at compliance assistance for the same violation was
no longer compliance assistance but rather consulting work.
We also agree with Region 8 oversight inspectors who
added that larger facilities such as MT05 should be familiar
with environmental requirements and the State should not
be continually providing compliance assistance.

Similarly, MDEQ provided smaller facilities, such as MT36,
repeated opportunities to address their violations. The
MT36 facility had repeated similar violations during several
inspections between 1995 and 1999. An MDEQ inspector
said facility staff turnover at MT36 led the inspector to
continue with informal enforcement action rather than
classify the facility as a high priority violator. One MDEQ
inspector added that he did not see the value in escalating
small “mom and pop” facilities for formal enforcement, and
preferred informal warning letters. A former enforcement
division case manager also stated that MDEQ would “go

           21                       Report No. 000762-2001-P-00004
                       Appropriate Violator Classifications and Timely Initial Enforcement
                       Actions Would Strengthen Montana's RCRA Enforcement Program


                       easy” on smaller facilities because those facilities lacked
                       appropriate education on environmental regulations.
                       However, the enforcement response policy mandates formal
                       enforcement for repeat violators regardless of the facility’s
                       size. In our opinion, a facility’s size should not influence
                       MDEQ’s decision to pursue formal enforcement action
                       where violations warrant a more stringent enforcement
                       response.

                       MDEQ’s director did not agree with EPA’s enforcement
                       approach to achieve facility compliance. He stated that
                       MDEQ’s approach was to use enforcement as one of the
                       many tools to obtain facility compliance. While MDEQ’s
                       director also stated that the Department’s primary goal was
                       to encourage businesses to comply with environmental laws,
                       MDEQ attempted to achieve that goal through compliance
                       assistance as well as formal enforcement. He further stated
                       that MDEQ’s overall attitude about how to work with a
                       facility was to be non-confrontational while ensuring
                       compliance. The director emphasized that if a facility was
                       intentionally violating the law, then MDEQ would take an
                       enforcement action. He added that inspectors should ask
                       themselves whether a facility was trying to operate within
                       the law or not. MDEQ and Region 8 inspectors agreed that
                       intent was difficult to document and if cases were based
                       solely on intent, few formal enforcement actions would be
                       taken.

                       Exhibit 3 lists all 9 inappropriate violator classifications.

Penalty Calculations   MDEQ continued its compliance assistance focus through
                       the penalty calculations phase. For example, MDEQ did not
                       assess penalties against the MT20 and MT39 facilities,
                       although MDEQ took formal enforcement actions against
                       each facility. Both Montana’s and EPA’s RCRA civil
                       penalty policies require well documented penalty
                       calculations that capture the gravity of the violation
                       committed and eliminate the economic incentives of non-
                       compliance. Both policies establish requirements to ensure
                       that penalties are consistent with the goals of deterrence,
                       fair and equitable treatment of the regulated community,

                                  22                       Report No. 000762-2001-P-00004
                         Appropriate Violator Classifications and Timely Initial Enforcement
                         Actions Would Strengthen Montana's RCRA Enforcement Program


                         and swift resolution of environmental problems. EPA’s
                         1987 enforcement response policy states that enforcement
                         actions against high priority violators should penalize the
                         violator and recover economic savings the violator may
                         have accrued. MDEQ staff said they did not assess
                         penalties against MT20 and MT39 because staff considered
                         the formal enforcement actions as cleanup orders rather
                         than penalty orders. However, MDEQ cited the two
                         facilities for high priority violations which warranted a
                         gravity component according to both the enforcement
                         agreement and the enforcement response policy. Both the
                         MT20 and MT39 cases had at least the appearance of
                         economic benefit, thus warranting at least the calculation of
                         an economic benefit component.

                         One former enforcement division case manager said that, in
                         general, if MDEQ could get a facility to comply, it would
                         forego a penalty calculation. MDEQ’s director said that the
                         enforcement division uses its discretion in every case and
                         will only pursue penalties for significant violations.
                         Enforcement division staff added that they would not assess
                         penalties against facilities if MDEQ knew that they could
                         not collect from the facility. However, Region 8 oversight
                         inspectors said MDEQ officials should not be writing off
                         penalties because a facility has an inability to pay. We agree
                         with Region 8 oversight inspectors who said MDEQ should
                         cite violations, fully calculate initial penalties (including
                         economic benefit, where appropriate), and document and
                         justify any reductions in penalty calculations or decisions to
                         drop a case.

Improved Monitoring of   MDEQ did not always effectively monitor case progress.
Case Progress Needed     Monitoring case progress includes tracking cases against
                         required state and EPA time frames, such as those contained
                         in EPA’s 1987 enforcement response policy, and prioritizing
                         cases based on adherence to time frames and other
                         considerations. Monitoring case progress is an important
                         management tool to determine where resources need to be
                         focused, to prevent unnecessary delays in enforcement
                         actions, and ultimately to prevent harm to the environment
                         and human health. In addition, monitoring case progress is

                                    23                       Report No. 000762-2001-P-00004
                                   Appropriate Violator Classifications and Timely Initial Enforcement
                                   Actions Would Strengthen Montana's RCRA Enforcement Program


       Table 2-4
                                   important to ensure that MDEQ initiates action on cases
     MT26 Activities               within Montana’s 2-year statute of limitations, which
  Date       MDEQ Actions
                                   restricts the Department’s ability to take enforcement
                                   actions after that time. MDEQ uses an enforcement
09/03/96   complaint received
                                   compliance information system to monitor and report
10/15/96   enforcement division    enforcement activities. However, at the time of our review,
           inspection
                                   the system did not track cases against time frames contained
05/23/97   second complaint        in EPA’s 1987 enforcement response policy.
           received

08/18/97   second enforcement
           division inspection
                                   The MT26 case was one example where effective
                                   monitoring may have prevented substantial delays in case
09/24/97   enforcement division
           sent violation letter   progress. The case originated from two separate complaints
                                   MDEQ's enforcement division received in 1996 and 1997.
05/28/98   third enforcement
           division inspection     Enforcement division personnel conducted inspections
                                   following each complaint, noting heavy saturation of oil
06/05/98   enforcement division
           sent second violation   spillage and asphalt flow on the ground each time. After a
           letter                  third followup inspection 633 days after MDEQ received
07/09/98   permitting and          the original complaint, the enforcement division advised the
           compliance division
           inspection
                                   facility that it was still out of compliance. In June 1998, the
                                   enforcement division referred the case to State inspectors
07/31/98   enforcement request
           signed                  for additional field investigation. After observing no
                                   evidence that the facility had cleaned up the used oil or
                                   asphalt, the MDEQ inspector immediately filed an
                                   enforcement request sending the case back to the
                                   enforcement division. As a result, the soil remained
                                   contaminated with used oil for almost 2 years before
                                   MDEQ took a formal enforcement action. Monitoring
                                   would have allowed MDEQ to assess where the MT26 case
                                   was in relation to enforcement response policy time frames
                                   and the State’s statute of limitations. See Table 2-4 for
                                   activities that took place at the MT26 facility.

                                   Monitoring case progress may have prevented unnecessary
                                   delays in addressing MT12's violations as well. After
                                   inspecting and citing the facility for operating an
                                   unpermitted treatment, storage, and disposal facility and
                                   unlawful disposal of hazardous waste, the inspector initiated
                                   an enforcement request. Although MDEQ staff collected
                                   evidence and prepared the case, the enforcement division
                                   eventually dropped the case due to lack of evidence and
                                   questioned whether environmental damage actually

                                              24                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


occurred. However, it took MDEQ over 300 days to make
this determination.

While we did not independently review the evidence MDEQ
staff relied upon to dismiss the case, we did review the case
file and discussed the case with the inspector and case
manager. Based upon MDEQ’s subsequent inspections of
the site, enforcement division staff said that cans contained
the waste, no leaking occurred, and the facility owner
cleaned up the site. However, the picture below depicts the
violations at the MT12 site and illustrates that leaking did
occur and cans did not contain the waste. Monitoring
would have helped MDEQ assess where technical
knowledge and/or enforcement knowledge was needed. At
the very least, monitoring would have allowed MDEQ staff
to evaluate the case and identify how similar situations
could be prevented from happening again.




                        The MT12 facility.


MDEQ staff did not take advantage of established time
frames as criteria to monitor case progress. MDEQ officials
stated that consistent time frames would not affect the
outcome of specific cases. MDEQ staff also stated that they
did not look at time frames to help prioritize cases or
allocate resources. Rather, the enforcement division took
cases as they came in, and worked as fast as they could to
keep cases moving forward. The enforcement division
administrator stated that his division did not “triage”

           25                       Report No. 000762-2001-P-00004
                            Appropriate Violator Classifications and Timely Initial Enforcement
                            Actions Would Strengthen Montana's RCRA Enforcement Program


                            enforcement requests, or perform quick initial assessments,
                            except in emergency situations that posed imminent threats
                            to the environment.

                            Although enforcement division staff said they do profile
                            each case to determine which cases can go through the
                            judicial process, better collaboration among MDEQ
                            divisions could help the Department effectively use its
                            resources. Additionally, by instituting a process where
                            cases are prioritized and monitored against time frames, the
                            enforcement division may be able to better identify more
                            difficult cases, allocate resources more effectively, and
                            ensure that cases progress as quickly as possible.

More Collaborative          MDEQ needed to apply a more collaborative internal team
Internal Team Approach      approach in its enforcement of hazardous waste laws.
Needed                      MDEQ’s 1995 reorganization created a system that relied
                            on strong communication to be effective since the
                            reorganization separated compliance activities from
                            enforcement activities. MDEQ files contained several
                            examples where increased information-sharing and
                            communication by divisional staff could have improved case
                            development. Also, cross-training could have helped
                            MDEQ divisions better understand the information other
                            staff needed to effectively manage cases.

Information-Sharing Could   Increased divisional information-sharing could have
Improve Communication       prevented miscommunication in some cases. For example,
                            information on a used oil spill at the MT26 facility spent
                            nearly 2 years in MDEQ’s enforcement division complaints
                            management section before being passed to inspectors in the
                            permitting and compliance division. The inspectors
                            subsequently conducted a further inspection and quickly
                            compiled the information necessary to submit a formal
                            enforcement request. However, the site remained
                            contaminated during the 2 years it took the enforcement
                            division complaints management section to share the
                            information.

                            Similarly, insufficient information prevented an enforcement
                            division case manager from adequately explaining why the

                                       26                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


penalty dropped from $8,500 to $1,000 in the MT42 case.
The case manager thought the attorney assigned to the case
would have documented his rationale for the penalty
reduction. However, the MT42 enforcement case file did
not contain the rationale. The attorney stated he fully
explained the penalty reduction in an enforcement sensitive
file he maintained separate from the case file and that
litigation risks justified the penalty reduction for the MT42
case. The attorney, however, had not shared that
information with the case manager. Because the
information would have been beneficial to the case manager,
we believe the attorney should have made a short
descriptive note in the case file regarding the penalty
reduction. In addition, a reference in the case file that the
enforcement sensitive file contained additional information
would help to ensure that MDEQ fully supported its penalty
decisions.

MDEQ staff said that divisional managers shared
information on cases. For example, managers meet once a
week to discuss case status and they also prepare monthly
reports that summarize MDEQ activities. Managers also
get together quarterly to develop the Department’s
compliance monitoring strategy. However, despite these
efforts, some MDEQ staff stated they were not involved in
RCRA case decisions. MDEQ’s air and waste management
bureau chief said that effective teamwork could result in
timely enforcement and adequately documented penalties
that provide economic disincentives and deter non-
compliance by the regulated industry.

One MDEQ staff member admitted that the divisions had a
strained relationship with one another following MDEQ’s
1995 reorganization, and that each division had a different
idea of what constituted appropriate enforcement. MDEQ
staff stated that enforcement case managers lost intimate
facility knowledge as a result of being separated from
compliance staff following the reorganization. However,
enforcement division section chiefs stated their staff did not
lose facility knowledge as a result of the reorganization.
They said their staff had a team approach toward

           27                       Report No. 000762-2001-P-00004
                           Appropriate Violator Classifications and Timely Initial Enforcement
                           Actions Would Strengthen Montana's RCRA Enforcement Program


                           enforcement cases and, as a “service division,” enforcement
                           personnel needed to remain in contact with the inspectors to
                           verify facts and other facility data. Nevertheless,
                           enforcement division staff said they generally felt “out of the
                           loop” in communications between MDEQ’s permitting and
                           compliance division and legal unit. Region 8 oversight
                           inspectors also said that MDEQ’s inspectors complained
                           about feeling “cut off” from their work once they referred a
                           case to the enforcement division.

                           High turnover in MDEQ’s enforcement division increased
                           the need to have staff share information. Region 8 staff
                           stated that high turnover in MDEQ’s enforcement division
                           caused a loss of continuity in some cases because
                           inadequate documentation prevented new staff from
                           understanding issues raised earlier in the case. For example,
                           in a letter to Region 8, the MDEQ enforcement division
                           case management section chief wrote that staff turnover of
                           three employees caused a delay in the approval of MT32's
                           supplemental environmental project. Similarly, a vacancy in
                           MDEQ’s enforcement division liaison position made
                           information exchange more difficult since the liaison served
                           as a facilitator between the enforcement division and other
                           divisions.

Cross-Training Could       Increased cross-training among MDEQ divisions could have
Improve Case Development   helped staff better manage their cases. For example,
                           enforcement division staff argued that the State inspectors
                           were unaware of what was required to make a strong
                           enforcement case against the MT12 facility. Similarly, a
                           State inspector said in one report that an enforcement
                           division complaints manager did not note asphalt seepage
                           during his investigation at the MT26 facility.

                           MDEQ officials stated that permitting and compliance
                           division staff could benefit from increased case development
                           knowledge, while enforcement division staff could benefit
                           from more familiarity with RCRA regulatory requirements.
                           A Region 8 oversight inspector added that MDEQ’s
                           inspectors could benefit from a broader case development
                           perspective when reviewing facilities, and that inspectors

                                      28                       Report No. 000762-2001-P-00004
                              Appropriate Violator Classifications and Timely Initial Enforcement
                              Actions Would Strengthen Montana's RCRA Enforcement Program


                              should be trained on such areas as “selling a case to
                              management” and writing effective warning letters. The
                              Region 8 inspector also said MDEQ’s enforcement division
                              staff could benefit from increased technical expertise in
                              determining the appropriate enforcement response for
                              RCRA violations.

Improved Documentation        MDEQ did not adequately document its RCRA compliance
Needed                        monitoring and enforcement program activities in the
                              facility inspection and enforcement files. MDEQ needed to
                              better document its rationale for penalty calculations and
                              enforcement action classifications, as well as a facility’s full
                              return to compliance.

                              MDEQ’s enforcement response manual states that:

                                      To support the penalty proposed in an order
                                      or complaint, a written explanation of how
                                      the penalty was calculated must be placed in
                                      the case file. The documentation must
                                      include a brief narrative explaining the
                                      rationale for the penalty amount, along with
                                      any relevant information or documents that
                                      support the penalty calculation.

                              Similarly, EPA’s 1993 Oversight of State and Local Penalty
                              Assessments: Revisions to the Policy Framework for
                              State/EPA Enforcement Agreements states that it is
                              important that accurate and complete documentation of
                              economic benefit calculations be maintained to support
                              defensibility in court, enhance negotiating posture, and lead
                              to greater consistency.

Insufficient Documentation    MDEQ did not adequately document its rationale for
of MDEQ’s Penalty             penalty calculations in 13 of 15 formal enforcement actions.
Calculations and Reductions   For example, the MT27 file insufficiently explained why
                              MDEQ decided not to include economic benefit or multi-
                              day components in the Department’s $20,497 penalty
                              calculation. Although MDEQ staff said they calculated
                              economic benefit for the MT27 facility and found the
                              benefit insignificant, the enforcement file did not contain

                                         29                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


documents to support that conclusion. MDEQ’s
enforcement division administrator said his staff could
determine that economic benefit would be inappropriate for
certain cases without going through economic benefit
calculations. Nonetheless, calculations would have
supported MDEQ’s decision not to include economic
benefit. The following picture illustrates used oil
contamination at the MT27 facility. The size of the oil
contamination suggests that the spill lasted for more than
one day. MDEQ’s penalty calculation should have included
a multi-day component as well as a calculation for the
economic benefit the facility received for not properly
disposing of the oil.




                The MT27 facility. The dark area
                in the concrete represents used oil
                          contamination.


Additionally, MDEQ’s files did not adequately support the
rationale for why MDEQ did not seek penalties against the
MT20 and MT39 facilities. In both instances, MDEQ
classified the facilities as high priority violators, yet did not
assess penalties. EPA’s 1987 enforcement response policy
states that enforcement actions against high priority
violators should penalize the violator and recover any
economic savings the violator may have accrued. MDEQ
staff stated that they did not calculate penalties in those

           30                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program


cases because the enforcement actions were cleanup rather
than penalty orders. However, each case file included an
assessment of the facility owner’s ability to pay. Region 8's
1999 oversight review found that MDEQ assumed an
inability to pay at the MT20 facility prior to having
reviewed all of the facility owner’s financial documentation.

Finally, MDEQ’s files did not support the Department’s
penalty calculation and eventual collection for the MT24
facility. MDEQ classified the facility as a high priority
violator for operating a hazardous waste facility without a
permit. In a letter to the facility, MDEQ stated that it had
evidence to support a $400,000 penalty, but that it would be
willing to settle for $21,340. MDEQ later reduced its
penalty calculation to $16,228, and eventually settled with
the facility for $8,200 according to a June 9, 2000 press
release. MDEQ did not clearly document its rationale for
each penalty reduction.

MDEQ’s enforcement division administrator stated that, in
general, his staff determine whether they are going to
pursue a penalty and, if not, they do not calculate a penalty
or document their decision not to pursue a penalty. MDEQ
staff added that MDEQ’s enforcement division staff made
decisions based upon their best professional judgement and
years of experience. MDEQ staff also stated that the
Department would rather have facilities with limited
financial resources spend their money on cleaning up
violations than on paying penalties. However, MDEQ’s
penalty policy requires the Department to fully calculate a
penalty and then negotiate the terms of the penalty with the
violator. Exhibit 6 lists all cases where MDEQ did not
comply with either state or federal penalty policy.


Prior Region 8 oversight reviews in fiscal 1997 through
1999 also found that MDEQ did not adequately document
its penalty calculations in a number of cases. According to
EPA’s 1993 Oversight of State and Local Penalty
Assessments: Revisions to the Policy Framework for
State/EPA Enforcement Agreements, in situations where

           31                       Report No. 000762-2001-P-00004
                             Appropriate Violator Classifications and Timely Initial Enforcement
                             Actions Would Strengthen Montana's RCRA Enforcement Program


                             states adopt and implement a sound penalty policy, such as
                             keeping complete documentation of penalty calculations,
                             the state would receive less EPA oversight with a focus on
                             periodic audits, generally limiting discussions of penalties in
                             ongoing cases to major matters or unusual circumstances.

Insufficient Documentation   MDEQ’s inspection files did not always document support
of Enforcement Action        for the Department’s decisions to classify facilities as low
Classifications and Return   priority violators instead of high priority violators.
to Compliance                Although the enforcement response policy does not
                             specifically require documentation to support low priority
                             violator classifications, the inspection reports occasionally
                             included information, such as repeat violations, that
                             appeared to warrant higher violator classifications. For
                             example, MDEQ classified the MT04 facility as a low
                             priority violator even though the facility had the same Class
                             II violations during two inspections over a year-and-half
                             time period. The inspector said he classified the facility as a
                             low priority violator because the facility lacked
                             sophistication and filled its environmental manager position
                             with a newly-promoted painter. A Region 8 RCRA
                             oversight inspector concurred with MDEQ’s violator
                             classification, but justified his determination based on the
                             fact that the MT04 facility quickly complied with its prior
                             violations.

                             A simple annotation in the case file referencing the factors
                             impacting MDEQ’s violator classification for MT04 would
                             have contributed to better case file documentation.
                             Improved documentation would better support MDEQ’s
                             decisions on violator classifications for facilities that could
                             be high priority violators, such as those with repeat
                             violations.


                             Similarly, MDEQ insufficiently documented why certain
                             facilities were given extra time to comply with time frames
                             specified in warning letters. For example, while the warning
                             letter issued to the MT17 facility required compliance
                             within 20 days of letter receipt, MT17 did not comply for
                             40 days. The inspector said he knew the facility owner

                                        32                       Report No. 000762-2001-P-00004
              Appropriate Violator Classifications and Timely Initial Enforcement
              Actions Would Strengthen Montana's RCRA Enforcement Program


              worked long hours and, even though the MDEQ inspector
              called to remind the facility owner of the deadline, he still
              gave MT17 extra time to comply.

              MDEQ staff also did not always adequately document in
              facility inspection and enforcement files whether some
              facilities achieved full physical compliance. For example,
              MDEQ staff did not document return to compliance in
              either the MT20 or MT24 cases. MDEQ staff said that
              both cases required the involvement of other programs and
              that the MT20 site would not be fully cleaned up for
              another 2 years. However, MDEQ did not adequately
              document the reasons for the delay. In addition, MDEQ did
              not adequately document return to compliance for facilities
              MT12, MT22, and MT41.



CONCLUSION	   While MDEQ’s violator classifications and enforcement
              actions generally contributed to protecting human health
              and the environment from risks associated with improper
              management of hazardous wastes, improvements could be
              made to help reduce potential environmental harm, ensure
              the integrity of MDEQ’s RCRA enforcement program, and
              provide an effective deterrent to non-compliance.

              MDEQ did not always appropriately classify violators, take
              timely initial enforcement actions, or adequately document
              its rationale for penalty calculations and consider economic
              benefit or multi-day components where appropriate.
              MDEQ needed to consistently utilize EPA guidance,
              adequately balance compliance assistance with enforcement,
              and fully document its RCRA activities and decisions.
              MDEQ could have benefitted from more effectively
              monitoring case progress and implementing a more
              collaborative internal team approach. In addition, Region 8
              should adequately update RCRIS to reflect its facility
              inspection and enforcement activities.

              RCRA is one of the main safeguards for protecting human
              health and the environment from the risks posed by

                         33                       Report No. 000762-2001-P-00004
                  Appropriate Violator Classifications and Timely Initial Enforcement
                  Actions Would Strengthen Montana's RCRA Enforcement Program


                  hazardous waste. Consistent, timely, appropriate, and well
                  documented actions are necessary to maintain the integrity
                  of RCRA programs and ensure that those actions reduce
                  potential public and environmental harm. In addition,
                  consistent, timely, appropriate, and well documented
                  actions maintain MDEQ’s credibility as an effective
                  deterrent with the courts, public, and regulated community.



RECOMMENDATIONS   We recommend that the Regional Adminstrator:

                  2-1.    Require MDEQ to comply with its new consolidated
                          cooperative enforcement agreement, particularly
                          when classifying violators and taking timely and
                          appropriate enforcement actions.

                  2-2.    Require MDEQ to escalate chronic or recalcitrant
                          violators for formal enforcement rather than
                          continue compliance assistance.

                  2-3.    Require MDEQ to fully calculate and document
                          penalties, including economic benefit and multi-day
                          components where appropriate, when issuing formal
                          enforcement actions against high priority violators.

                  2-4.    Provide additional RCRIS training to staff in Region
                          8's Montana Operations Office.

                  2-5.    Work with MDEQ to modify its enforcement
                          compliance information system to monitor case
                          progress and prioritize enforcement requests using
                          time frames in the State’s new consolidated
                          cooperative enforcement agreement.

                  2-6.    Support MDEQ efforts and provide assistance,
                          where appropriate, in developing an information-
                          sharing process so both inspectors and enforcement
                          staff are aware of facility activities.

                  2-7.    Support MDEQ efforts and provide assistance,

                             34                       Report No. 000762-2001-P-00004
                   Appropriate Violator Classifications and Timely Initial Enforcement
                   Actions Would Strengthen Montana's RCRA Enforcement Program


                           where appropriate, in developing a divisional cross-
                           training plan for staff that provides technical training
                           and information on case development.

                   2-8.    Require MDEQ to fully document its actions related
                           to penalty calculations and reductions, violator
                           classifications, and instances where MDEQ provides
                           extended time frames for a facility to return to
                           compliance.

                   2-9.    Require MDEQ to maintain full documentation of a
                           facility’s return to physical compliance.

                   2-10. As part of Region 8's Uniform Enforcement
                         Oversight System, it should assess whether MDEQ
                         has complied with the report's recommendations and
                         adjust the level of regional oversight and technical
                         assistance accordingly. Region 8 also should
                         include pertinent recommendations as part of
                         MDEQ's grant conditions, performance partnership
                         agreement, and/or other agreements to ensure the
                         recommendations are implemented. Finally, the
                         Region should develop a tiered approach for states
                         that do not properly classify violators or take timely
                         enforcement actions. Region 8's approach should
                         define when the Region will overfile, directly
                         implement the program, withhold grant dollars, and
                         finally take back the program.



AGENCY AND STATE   Both Region 8 and MDEQ officials provided comments to
COMMENTS AND OIG   clarify the report. We have incorporated their comments
EVALUATION         and modified the report as appropriate. We have included
                   Region 8's complete response in Appendix I.

                   Region 8 officials agreed with the findings, conclusions, and

                   recommendations. Region 8 staff stated that its prior

                   regional reviews led to conclusions similar to those

                   contained in this audit report. However, Region 8 staff

                   disagreed with some of our facility-specific conclusions

                   regarding violator classifications and agreed with the


                              35                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program

classifications MDEQ made for facilities MT05, MT18, and
MT27.

MDEQ officials generally disagreed with the findings and
conclusions. MDEQ staff stated that they strongly
disagreed with our conclusion that the Department
inappropriately classified violators. MDEQ staff stated that
the permitting and compliance division did follow the 1993
enforcement agreement, with very few exceptions, when
identifying and classifying violators. Also, they stated that
they undertook timely actions to address violations in
accordance with the enforcement agreement. MDEQ staff
explained that in those instances where the Department
exceeded timelines, unique case-specific factors allowed
deviation from established response timelines. MDEQ staff
also stated they disagreed with our conclusion that the
Department offered inappropriate compliance assistance in
lieu of enforcement. MDEQ officials stated that the audit
did not acknowledge that MDEQ had discretion, or
professional judgment, in determining what actions it took.

We recognize that classifying violators and determining the
appropriate enforcement action requires an evaluation of
case-specific factors and professional judgment. However,
we also believe that professional judgment and evaluation
should be based upon the guidelines of the enforcement
response policy and the enforcement agreement that MDEQ
and Region 8 agreed to use. In addition, MDEQ should be
able to clearly demonstrate that its professional judgment
was appropriate, and where actions deviated from the policy
or agreement, that MDEQ adequately document its
rationale. This report discusses those instances where we
believe MDEQ did not comply with the enforcement
agreement.

MDEQ officials also disagreed that non-compliance with
EPA’s enforcement response policy resulted in an increased
threat to human health and the environment. MDEQ
officials stated that compliance with EPA’s policies was not
the sole indicator of program performance or of protection
of human health and the environment. In addition, MDEQ

           36                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program

staff stated that while their actions may not have always
satisfied EPA’s guidance, the audit did not demonstrate that
exceeding time frames increased the potential for harm to
human health and the environment. Region 8 staff also
responded that when evaluating how well human health and
the environment are protected, it was difficult to specifically
measure the effectiveness of any single component such as
compliance with the enforcement agreement. MDEQ staff
added that the audit did not substantiate any risks, and the
report’s conclusions portray an inaccurate characterization
of the success of MDEQ’s hazardous waste compliance and
enforcement programs.

We agree that compliance with EPA’s policies is not the
only way to assure the protection of human health and the
environment. However, the 1993 enforcement agreement
between MDEQ and EPA Region 8 states that one of the
goals of RCRA was to protect human health and the
environment and both MDEQ and Region 8 recognized

        ...that for this goal to be fully met, a high
        level of compliance with applicable standards
        must be maintained within the regulated
        hazardous waste community. To do this
        requires the establishment of a credible
        enforcement presence by the State of
        Montana and EPA.

In the 1993 agreement, MDEQ agreed to take timely and
appropriate enforcement action and considered the time
frames used by EPA in its definition of “timely and
appropriate” to be goals for good program performance.
Further, MDEQ agreed that the time frames were guidelines
that MDEQ and Region 8 should use to review progress in
individual cases. As such, MDEQ agreed to use EPA’s
definitions and policies to help meet RCRA’s goal of
protecting human health and the environment from risks
associated with improper management of hazardous waste.

This report discusses those cases that did not meet the 1993
enforcement agreement requirements. We believe that

           37                       Report No. 000762-2001-P-00004
Appropriate Violator Classifications and Timely Initial Enforcement
Actions Would Strengthen Montana's RCRA Enforcement Program

compliance with enforcement agreement standards are
important to ensure a credible enforcement presence that
provides a deterrent and helps to protect human health and
the environment. We also believe that our audit results
clearly showed that by not meeting the time frames in the
enforcement response policy, MDEQ did not help facilities
return to compliance as quickly as possible. Facilities that
remained out of compliance posed a potential threat to
human health and environment. In addition, MDEQ’s
untimely initial enforcement actions minimized the
Department’s deterrent effect. MDEQ should take action
as quickly as possible to ensure that facilities correct
violations in a expeditious manner.




           38                       Report No. 000762-2001-P-00004
                                     Appropriate Violator Classifications and Timely Initial Enforcement
                                     Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                                            EXHIBIT 1
                           SCOPE AND METHODOLOGY


For our review, we elected to focus on Montana after eliminating the other two states in Region 8
that had significant numbers of large quantity generators. The Region identified areas needing
improvement with the other two states' RCRA enforcement programs. Region 8 was already
conducting significant oversight and direct implementation in one state to address its problems,
and OIG planned to include the other state in a national enforcement audit.

We obtained comprehensive RCRIS compliance monitoring and enforcement reports for fiscal
1997 though 1999 for all of Montana’s RCRA facilities. To determine whether violator
classifications and enforcement actions complied with EPA's enforcement response policy, we
reviewed inspections and enforcement actions for 47 out of 113 facilities in Montana that had
violations identified in RCRIS during fiscal 1997 through 1999. We selected 47 facilities to
review as follows:

       •	     We reviewed all 17 (out of 17) large quantity generators with violations identified
              during inspections conducted in fiscal 1997 through 1999.

       •	     We also reviewed all 23 (out of 23) small quantity generators with violations
              identified during inspections conducted in fiscal 1997 through 1999.

       •	     We chose a judgmental sample of 7 out of the 73 conditionally-exempt small
              quantity generators since Montana has a large universe of these types of facilities.
              The seven conditionally-exempt small quantity generators we chose to review had
              violations identified during inspections conducted in fiscal 1997 through 1999.

We interviewed officials in MDEQ's permitting and compliance division’s air and waste
management bureau and the enforcement division, as well as Region 8 staff, regarding MDEQ’s
actions at the 47 facilities we reviewed. Specifically, we met with the following MDEQ and
Region 8 staff:

       MDEQ Staff:
           •       Two former MDEQ enforcement division case managers,

              •       MDEQ enforcement division administrator,

              •       MDEQ enforcement division case management section chief,

              •       MDEQ enforcement division complaints management section chief,

                                                39                       Report No. 000762-2001-P-00004
                                     Appropriate Violator Classifications and Timely Initial Enforcement
                                     Actions Would Strengthen Montana's RCRA Enforcement Program



              •       MDEQ permitting and compliance division administrator,

              •	      MDEQ permitting and compliance division air and waste management
                      bureau chief,

              •	      MDEQ permitting and compliance division air and waste management
                      bureau hazardous waste section supervisor,

              •	      Two MDEQ permitting and compliance division air and waste management
                      bureau hazardous waste section inspectors,

              •       One attorney in MDEQ’s legal unit,

              •       MDEQ administrative officer, and

              •       MDEQ director.

       Region 8 Staff:
              •       Region 8 Montana operations office waste and toxics team leader,

              •       Two Region 8 Montana operations office waste and toxics team inspectors,

              •       Two Region 8 RCRA oversight inspectors,

              •       Region 8 RCRIS database manager,

              •	      Deputy Assistant Regional Administrator, Region 8 Enforcement,
                      Compliance, and Environmental Justice,

              •	      Environmental Protection Specialist, Region 8 Enforcement, Compliance,
                      and Environmental Justice,

              •       Director, Region 8 Technical Enforcement Program, and

              •	      Senior Enforcement Specialist within Region 8's Technical Enforcement
                      Program.

To determine the requirements MDEQ agreed to use for violator classifications and enforcement
actions, we used the timely and appropriate enforcement action criteria in the 1987 enforcement
response policy since MDEQ’s and Region 8's 1993 RCRA enforcement agreement cited the

                                                40                       Report No. 000762-2001-P-00004
                                     Appropriate Violator Classifications and Timely Initial Enforcement
                                     Actions Would Strengthen Montana's RCRA Enforcement Program

1987 policy as criteria and this agreement governed the period of our review from fiscal 1997
through 1999. In addition, we evaluated MDEQ’s performance against the 1996 enforcement
response policy to determine what impact, if any, resulted from MDEQ not using the current
guidance. We also evaluated MDEQ’s performance against the Department’s 1995 penalty
policy, MDEQ’s 1999 enforcement response manual, and 2000 consolidated cooperative
enforcement agreement.

To determine whether enforcement actions returned violators to compliance and whether that
compliance was timely and documented, we reviewed the 47 facility files for evidence of return to
compliance by the facility or for evidence of followup inspections. We evaluated MDEQ's actions
against its 1993 RCRA enforcement agreement with Region 8 regarding timely and appropriate
enforcement actions. We also visited two facilities to observe how MDEQ conducts inspections.

To evaluate whether penalty calculations complied with Montana’s and EPA’s RCRA civil
penalty policies, we reviewed all 16 facility files where MDEQ took formal enforcement actions.
We did not review facility files for the informal enforcement actions to determine whether a
penalty should have been assessed. In addition, we did not attempt to recalculate the penalty. We
evaluated the penalty calculation to determine whether it generally complied with Montana’s and
EPA's penalty policies, including consideration of economic benefit and multi-day components.
We also reviewed the files to determine whether they contained sufficient documentation for the
basis of the penalty calculation, any adjustments, and the final collection.

To determine whether accurate data were recorded in RCRIS, we compared the results of our
review of the 47 facility files to RCRIS reports to determine whether RCRIS accurately reflected
information on inspections, enforcement actions, and penalties. We also reviewed whether the
facility files contained supporting documentation for activities in RCRIS. Although we used data
from RCRIS during the audit, we did not evaluate controls over the system. Our review of
RCRIS included the input and update of data by both MDEQ and Region 8.




                                                41                       Report No. 000762-2001-P-00004
                                   Appropriate Violator Classifications and Timely Initial Enforcement
                                   Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                                          EXHIBIT 2
                             PRIOR AUDIT REPORTS


RCRA ENFORCEMENT: RCRA Significant Noncomplier Identification and Enforcement by
Rhode Island Department of Environmental Management, Report No. E1GSD8-01-0006-
9100078, dated January 21, 1999

RCRA ENFORCEMENT: Region 2's Enforcement of the Resource Conservation and Recovery
Act (RCRA), Report No. 1999-1-00224, dated July 21, 1999

Identification and Enforcement of RCRA Significant Noncompliers by EPA Region III and the
Virginia Department of Environmental Quality, Report No. 1999-P-00215, dated September 20,
1999

RCRA ENFORCEMENT: Resource Conservation and Recovery Act Significant Noncomplier
Enforcement, Report No. E1DSD8-05-0036-9100110, dated March 23, 1999

RCRA: Region 7 and Nebraska Resource Conservation and Recovery Act Enforcement,
Report No. 1999-183-P00211, dated July 6, 1999

RCRA ENFORCEMENT: Significant Noncomplier Enforcement by EPA and Washington State,
Report No. E1GSF7-11-0019-8100093, dated March 31, 1998

Region 8's Administration of State Resource Conservation and Recovery Act Enforcement
Activities, Report No. E1DSC1-08-0049-1100428, dated September 31, 1991

Consolidated Report on Review of EPA's Controls Over Administrative Penalties Under the
RCRA Enforcement Program, Report No. E1G6*8-09-0188-9100479, dated September 18, 1989

Review of EPA, Region 8's Controls Over Compliance Monitoring of RCRA Enforcement
Program Consent Agreement Provisions, Report No. E1G27-08-0054-81855, dated
September 13, 1988




                                              42                       Report No. 000762-2001-P-00004
                                                    Appropriate Violator Classifications and Timely Initial Enforcement
                                                    Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                                                                   EXHIBIT 3
                                      VIOLATOR CLASSIFICATIONS


The 1987 enforcement response policy lists 4 factors to consider when classifying a facility as a high priority violator. The
following 4 criteria pertain to high priority violators:

          1)	          A handler who has caused actual exposure, or substantial likelihood of exposure to hazardous waste or
                       hazardous constituents;

          2)	          Chronic or recalcitrant handlers (this includes handlers who are regularly found to have many Class I or
                       Class II violations);

          3)	          A handler who deviates from the terms of a permit, order, or decree by not meeting requirements in a timely
                       manner and/or by failing to perform work as required by terms of permits, orders, or decrees; or

          4)           A handler who substantially deviates from RCRA statutory or regulatory requirements.

We considered all four criteria in our analysis. However, in our judgment many of the facilities appeared to be chronic or
recalcitrant handlers. When considering whether a facility was a chronic or recalcitrant handler, we evaluated whether the
handler had a history of repeated Class I and/or Class II violations that would indicate a general unwillingness or inability to
comply with requirements. In addition, we also evaluated whether the facility was regularly found to have violations that were
not quickly resolved or regularly found with the same type of violation. The blue text below indicates where we
differed with MDEQ’s violator classifications.



                Facility       Inspection               MDEQ Violator                              OIG Violator
                 Name             Date                   Classification                            Classifications
 1.             MT05          06/03/96          Class II low priority violator          Class II low priority violator
                              11/25/97          Class II low priority violator          Class I high priority violator

 2.             MT13          12/09/97          Class I high priority violator          Class I high priority violator
                              08/27/98          Class II low priority violator          Class I high priority violator




                                                                  43                        Report No. 000762-2001-P-00004
                                 Appropriate Violator Classifications and Timely Initial Enforcement
                                 Actions Would Strengthen Montana's RCRA Enforcement Program


3.   MT14       11/06/92     Class II low priority violator         Class II low priority violator
                04/21/93     Class II low priority violator         Class II low priority violator
                11/17/94     Class II low priority violator         Class II low priority violator
                04/18/95     Class II low priority violator         Class II low priority violator
                04/28/95     Class II low priority violator         Class II low priority violator
                10/23/96     Class II low priority violator         Class II low priority violator
                11/04/97     Class II low priority violator         Class I high priority violator
                09/17/98     Class II low priority violator         Class I high priority violator
                11/17/99     Class II low priority violator         Class I high priority violator
                12/01/99     Class II low priority violator         Class I high priority violator

                                                                    MT14 should have been classified as a
                                                                    high priority violator on 11/04/97
                                                                    because MDEQ found the exact same
                                                                    violations during that inspection as it did
                                                                    on 11/17/94, 3 years earlier, as well as
                                                                    having a history of other violations.

     Facility   Inspection           MDEQ Violator                             OIG Violator
      Name         Date               Classification                           Classifications
4.   MT18       03/18/98     Class II low priority violator for 7   Class I high priority violator
                             violations stemming from not
                             notifying as a small quantity          MT18 should have been classified as a
                             generator.                             high priority violator since the facility
                                                                    was previously inspected on 02/02/95
                                                                    and was aware of the regulatory
                                                                    requirements.

                                                                    MDEQ officials indicated that they
                                                                    would have classified the facility as a
                                                                    high priority violator had there been the
                                                                    same operator at the facility during both
                                                                    the 02/02/95 and 03/18/98 inspections.
                                                                    Subsequent documents provided by
                                                                    MDEQ showed that the same operator
                                                                    was in place at MT18 during both
                                                                    inspections.

5.   MT22       06/30/92     Class I high priority violator         Class I high priority violator
                05/07/93     Class I high priority violator         Class I high priority violator
                07/09/98     Class II low priority violator         Class I high priority violator
                12/03/99     Class I high priority violator         Class I high priority violator




                                               44                       Report No. 000762-2001-P-00004
                           Appropriate Violator Classifications and Timely Initial Enforcement
                           Actions Would Strengthen Montana's RCRA Enforcement Program


6.   MT27   09/10/92   Class II low priority violator      Class II low priority violator
            09/07/93   Class II low priority violator      Class II low priority violator
            02/23/99   Class II low priority violator      Class I high priority violator
            08/24/99   Class I high priority violator      Class I high priority violator

                                                           MDEQ staff signed an enforcement
                                                           request on 10/25/99 which listed 20
                                                           repeat violations between 1990 and
                                                           1999 and noted that the facility had been
                                                           recalcitrant since 1990. MDEQ staff
                                                           stated that the enforcement request for
                                                           MT27 should have been more clearly
                                                           written to indicate that the facility
                                                           finally passed the high priority violator
                                                           threshold in 1999. MDEQ officials
                                                           added that similar “threshold” inquiries
                                                           occur in every case, and that MDEQ
                                                           staff use their best professional
                                                           judgement based on years of experience
                                                           to make such determinations.




                                         45                    Report No. 000762-2001-P-00004
                                 Appropriate Violator Classifications and Timely Initial Enforcement
                                 Actions Would Strengthen Montana's RCRA Enforcement Program


     Facility   Inspection           MDEQ Violator                          OIG Violator
      Name         Date               Classification                        Classifications
7.   MT32       03/30/92     Class II medium priority violator   Class II medium priority violator
                03/10/93     Class II low priority violator      Class I high priority violator
                03/30/94     Class II low priority violator      Class I high priority violator
                03/27/95     Class II medium priority violator   Class I high priority violator
                02/15/96     Class II low priority violator      Class I high priority violator
                03/12/96     Class II low priority violator      Class I high priority violator
                10/14/97     Class II low priority violator      Class I high priority violator
                09/09/98     Class I high priority violator      Class I high priority violator
                01/05/99     Class I high priority violator      Class I high priority violator

8.   MT33       02/28/92     Class II medium priority violator   Class II medium priority violator
                02/10/93     Class II low priority violator      Class I high priority violator
                01/11/94     Class II low priority violator      Class I high priority violator
                03/10/97     Class II low priority violator      Class I high priority violator
                03/03/98     Class I high priority violator      Class I high priority violator

9.   MT36       01/12/95     Class II medium priority violator   Class II medium priority violator
                03/31/97     Class II low priority violator      Class I high priority violator
                05/05/98     Class II low priority violator      Class I high priority violator
                03/24/99     Class II low priority violator      Class I high priority violator




                                              46                     Report No. 000762-2001-P-00004
                                          Appropriate Violator Classifications and Timely Initial Enforcement
                                          Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                                                EXHIBIT 4-A
         TIMELINESS OF VIOLATION DISCOVERY UNDER EPA’S
               1987 ENFORCEMENT RESPONSE POLICY

          Facility      Date of Inspection           Date of Violation         Days from Evaluation Date
           Name         (Evaluation Date)               Discovery                 to Date of Violation
                                                                                       Discovery
                                                                                  45 days from inspection date

1.        MT02        11/04/98                    11/04/98                    0
                                                  12/29/98                    55        (untimely)*

2.        MT06        03/19/98                    04/20/98                    33
3.        MT12        08/07/97                    08/07/97                    0

4.        MT13        12/09/97                    02/13/98                    66        (untimely)

5.        MT19        05/03/99                    07/30/99                    88        (untimely)
6.        MT20        11/09/98                    11/09/98                    0
7.        MT24        09/03/98                    10/21/98                    49        (untimely)*
8.        MT26        07/09/98                    07/09/98                    0
9.        MT27        08/24/99                    08/24/99                    0

10.       MT32        01/05/99                    01/05/99                    0
11.       MT32        09/09/98                    09/09/98                    0

12.       MT33        03/03/98                    03/03/98                    0
13.       MT39        08/25/98                    08/25/98                    0
                                                  02/12/99                    170       (untimely)

14.       MT41        03/23/99                    04/23/99                    32
15.       MT42        11/21/97                    12/03/97                    13

16.       MT43        03/20/98                    03/20/98                    0


*Region 8 staff agreed that MDEQ’s delays were justifiable.




                                                      47                      Report No. 000762-2001-P-00004
                                          Appropriate Violator Classifications and Timely Initial Enforcement
                                          Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                                               EXHIBIT 4-B
               TIMELINESS OF DECISIONS TO TAKE FORMAL
               ENFORCEMENT ACTIONS UNDER MONTANA’S
                 1999 ENFORCEMENT RESPONSE MANUAL

        Facility        Date of            Date of            Date of          Days from Date of Violation
         Name         Inspection          Violation         Enforcement             Determination to
                          or            Determination         Request            Enforcement Request
                      Evaluation                                                    90 days from violation
                         Date                                                           determination

1.      MT02       11/04/98            11/04/98            02/08/99           94       (untimely)
                                       12/29/98                               40

2.      MT06       03/19/98            04/20/98            06/02/98           52
3.      MT12       08/07/97            08/07/97            09/29/97           52
4.      MT13       12/09/97            02/13/98            05/18/98           95       (untimely)*

5.      MT19       05/03/99            07/30/99            10/18/99           78
6.      MT20       11/09/98            11/09/98            01/07/99           58
7.      MT24       09/03/98            10/21/98            12/03/98           43

8.      MT26       07/09/98            07/09/98            07/31/98           22
9.      MT27       08/24/99            08/24/99            10/25/99           61
10.     MT32       01/05/99            01/05/99            02/08/99           33
11.     MT32       09/09/98            09/09/98            02/08/99           149      (untimely)
12.     MT33       03/03/98            03/03/98            05/01/98           58

13.     MT39       08/25/98            08/25/98            03/12/99           197      (untimely)
                                       02/12/99                               30

14.     MT41       03/23/99            04/23/99            05/06/99           13

15.     MT42       11/21/97            12/03/97            07/31/98           240      (untimely)
16.     MT43       03/20/98            03/20/98            05/01/98           41
*MDEQ officials said that questions concerning litigation risks delayed approval of MT13's enforcement request.




                                                      48                      Report No. 000762-2001-P-00004
                                Appropriate Violator Classifications and Timely Initial Enforcement
                                Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                                     EXHIBIT 4-C
 TIMELINESS OF DECISIONS TO TAKE FORMAL ENFORCEMENT
 ACTIONS UNDER EPA’S 1996 ENFORCEMENT RESPONSE POLICY


      Facility       Date of        Date of                  Days from Evaluation Date to
       Name        Inspection     Enforcement                   Enforcement Request
                       or           Request                          90 day requirement
                   Evaluation
                      Date
1.    MT02       11/04/98       02/08/99               97       (untimely)
2.    MT06       03/19/98       06/02/98               76
3.    MT12       08/07/97       09/29/97               54
4.    MT13       12/09/97       05/18/98               161      (untimely)
5.    MT19       05/03/99       10/18/99               165      (untimely)

6.    MT20       11/09/98       01/07/99               60
7.    MT24       09/03/98       12/03/98               92       (untimely)
8.    MT26       07/09/98       07/31/98               23

9.    MT27       08/24/99       10/25/99               63
10.   MT32       01/05/99       02/08/99               35

11.   MT32       09/09/98       02/08/99               153      (untimely)
12.   MT33       03/03/98       05/01/98               60

13.   MT39       08/25/98       03/12/99               200      (untimely)
14.   MT41       03/23/99       05/06/99               45

15.   MT42       11/21/97       07/31/98               253      (untimely)

16.   MT43       03/20/98       05/01/98               43




                                           49                       Report No. 000762-2001-P-00004
                                                Appropriate Violator Classifications and Timely Initial Enforcement
                                                Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                                                                    EXHIBIT 5
            COMPARISON OF FORMAL ENFORCEMENT ACTIONS
                  USING 1987, 1996, AND 2000 POLICIES

     Facility          MDEQ Actions                1987 enforcement               1996 enforcement               September 2000
      Name                                           response policy                response policy                consolidated
                                                 90 days from violation         90 days from violation              cooperative
                                                  determination to issue    determination to issue an initial      enforcement
                                                    an administrative        order; 120 days to refer to the         agreement
                                                    action or refer to     Attorney General’s Office; or 210       120 days from
                                                 the Attorney General’s     days to enter a final or consent    enforcement request
                                                          Office                         order                    to initial action

1.   MT02       12/29/98 violation               untimely                  untimely                             untimely
                         determination
                02/08/99 enforcement request     437 days from             437 days from violation              395 days from
                         signed                  violation determination   determination to initial action      enforcement request
                03/10/00 demand letter           to initial action                                              to initial action


2.   MT06       04/20/98 violation               untimely                  untimely                             timely
                         determination
                06/02/98 enforcement request     135 days from             135 days from violation              91 days from
                         signed                  violation determination   determination to initial action      enforcement request
                09/01/98 administrative order    to initial action                                              to initial action
                         with penalty

3.   MT12       08/07/97 violation               untimely                  untimely                             untimely
                         determination
                09/29/97 enforcement request     180 days from             180 days from violation              137 days from
                         signed                  violation determination   determination to initial action      enforcement request
                02/03/98 notice of violation     to initial action                                              to initial action


4.   MT12       08/07/97 violation               untimely                  untimely                             untimely
                         determination
                09/29/97 enforcement request     357 days from             357 days from violation              305 days from
                         signed                  violation determination   determination to initial action      enforcement request
                07/30/98 case dropped due to     to initial action                                              to initial action
                         lack of evidence

5.   MT13       02/13/98 violation               untimely                  untimely                             untimely
                         determination
                05/18/98 enforcement request     309 days from             309 days from violation              215 days from
                         signed                  violation determination   determination to initial action      enforcement request
                12/18/98 administrative order    to initial action                                              to initial action
                         with penalty


6.   MT19       07/30/99 violation               untimely                  untimely                             untimely
                         determination
                10/18/99 enforcement request     234 days from             234 days from violation              155 days from
                         signed                  violation determination   determination to consent order       enforcement request
                03/21/00 demand letter           to consent order                                               to initial action




                                                              50                             Report No. 000762-2001-P-00004
                                                 Appropriate Violator Classifications and Timely Initial Enforcement
                                                 Actions Would Strengthen Montana's RCRA Enforcement Program

      Facility          MDEQ Actions                1987 enforcement           1996 enforcement response          September 2000
       Name                                           response policy                    policy                     consolidated
                                                  90 days from violation         90 days from violation              cooperative
                                                   determination to issue    determination to issue an initial      enforcement
                                                     an administrative        order; 120 days to refer to the         agreement
                                                     action or refer to     Attorney General’s Office; or 210       120 days from
                                                  the Attorney General’s     days to enter a final or consent    enforcement request
                                                           Office                         order                    to initial action

7.    MT20       11/09/98 violation               untimely                  untimely                             timely
                          determination
                 01/07/99 enforcement request     180 days from             180 days from violation              119 days from
                          signed                  violation determination   determination to initial action      enforcement request
                 05/06/99 notice of violation     to initial action                                              to initial action
                          and administrative
                          order for corrective
                          action

8.    MT24       10/21/98 violation               untimely                  untimely                             untimely
                          determination
                 12/03/98 enforcement request     276 days from             276 days from violation              232 days from
                          signed                  violation determination   determination to initial action      enforcement request
                 07/23/99 demand letter           to initial action                                              to initial action

9.    MT26       07/09/98 violation               untimely                  untimely                             untimely
                          determination
                 07/31/98 enforcement request     163 days from             163 days from violation              140 days from
                          signed                  violation determination   determination to initial action      enforcement request
                 12/18/98 administrative order    to initial action                                              to initial action
                          with penalty

10.   MT27       08/24/99 violation               untimely                  untimely                             timely
                          determination
                 10/25/99 enforcement request     172 days from             172 days from violation              109 days from
                          signed                  violation determination   determination to initial action      enforcement request
                 02/11/00 notice of violation     to initial action                                              to initial action
                          and administrative
                          order for corrective
                          action


11.   MT32       01/05/99 violation               untimely                  untimely                             untimely
                          determination
                 02/08/99 enforcement request     200 days from             200 days from violation              165 days from
                          signed                  violation determination   determination to initial action      enforcement request
                 07/23/99 letter to resolve       to initial action                                              to initial action
                          violations prior to
                          initiation of civil
                          litigation (with
                          attached penalty
                          calculations)




                                                               51                             Report No. 000762-2001-P-00004
                                                 Appropriate Violator Classifications and Timely Initial Enforcement
                                                 Actions Would Strengthen Montana's RCRA Enforcement Program

      Facility          MDEQ Actions                1987 enforcement            1996 enforcement response          September 2000
       Name                                           response policy                     policy                     consolidated
                                                  90 days from violation          90 days from violation              cooperative
                                                   determination to issue     determination to issue an initial      enforcement
                                                     an administrative         order; 120 days to refer to the         agreement
                                                     action or refer to      Attorney General’s Office; or 210       120 days from
                                                  the Attorney General’s      days to enter a final or consent    enforcement request
                                                           Office                          order                    to initial action

12.   MT32       09/09/98 violation               untimely                   untimely                             untimely
                          determination
                 02/08/99 enforcement request     318 days from              318 days from violation              165 days from
                          signed                  violation determination    determination to initial action      enforcement request
                 07/23/99 letter to resolve       to initial action                                               to initial action
                          violations prior to
                          initiation of civil
                          litigation (with
                          attached penalty
                          calculations)

13.   MT33       03/03/98 violation               untimely                   untimely                             timely
                          determination
                 05/01/98 enforcement request     106 days from              106 days from violation              46 days from
                          signed                  violation determination    determination to initial action      enforcement request
                 06/16/98 notice of violation     to initial action                                               to initial action
                          and administrative
                          order for corrective
                          action with penalty

14.   MT39       02/12/99 violation               untimely                   untimely                             untimely
                          determination
                 03/12/99 enforcement request     239 days from              239 days from violation              210 days from
                          signed                  violation determination    determination to initial action      enforcement request
                 10/08/99 administrative order    to initial action                                               to initial action


15.   MT41       04/23/99 violation               timely                     timely                               timely
                          determination
                 05/06/99 enforcement request     50 days from violation     50 days from violation               36 days from
                          signed                  determination to initial   determination to initial action      enforcement request
                 06/11/99 administrative order    action                                                          to initial action


16.   MT42       12/03/97 violation               untimely                   untimely                             timely
                          determination
                 07/31/98 enforcement request     301 days from              301 days from violation              61 days from
                          signed                  violation determination    determination to initial order       enforcement request
                 09/29/98 notice of violation     to initial action                                               to initial order
                          and administrative
                          order for corrective
                          action with penalty




                                                                52                             Report No. 000762-2001-P-00004
                                                  Appropriate Violator Classifications and Timely Initial Enforcement
                                                  Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                                                                  EXHIBIT 6
            HIGH PRIORITY VIOLATOR PENALTY CALCULATIONS
               THAT DID NOT MEET POLICY REQUIREMENTS
Penalty Policy Requirements:

A.	 Some violations (e.g. operating a facility without a permit) may jeopardize the continued integrity of the State’s RCRA
    program and merit substantial penalties where the violation undermines the State’s regulatory purpose.

B.	 Where a violation involves the actual management of waste, a penalty should reflect the probability that the violation
    could have resulted in, or has resulted in, a release of hazardous waste or constituents.

C.	 The Department should not consider ability to pay prior to its initial penalty calculation, and rather should assess a penalty
    and then make downward adjustments based on ability to pay.

D.	 The Department should explain and document the process by which it arrived at the final penalty figure, as well as
    carefully document the basis for recalculations of penalty computations.

E.    Penalties for multi-day violations should be included where any of the violations continued more than one day.

F.	 Penalties should recapture any significant economic benefit of noncompliance that accrues to a violator, and it is
    incumbent on all enforcement personnel to calculate economic benefit, even if it is later found to be negligible (under
    $2,500).

G.	 When inability to pay is a factor, other options rather than collecting the full penalty include installment plans, delayed
    payment schedule with interest, or straight penalty reductions as a last recourse.


          Facility                      MDEQ Penalty Activities                           A     B     C     D     E     F     G
           Name

 1.       MT02        MDEQ cited the the facility for five violations, including                X           X           X
                      discharging hazardous waste to the ground. MDEQ officials
                      assessed a penalty of $188,000 and stated that litigation risks
                      justified the penalty reductions.

 2.       MT06        MDEQ cited the facility for violating restrictions on the land            X           X           X
                      disposal of hazardous waste. MDEQ assessed and collected a
                      penalty of $1,200.

 3.       MT12        MDEQ cited the facility for unlawful hazardous waste disposal       X     X           X     X     X
                      and operating a treatment, storage, and disposal facility
                      without a permit. MDEQ did not assess a penalty, and the file
                      indicated that MDEQ dropped the case due to lack of
                      sufficient evidence. We did not independently review the
                      evidence MDEQ staff relied upon to dismiss the case. MDEQ
                      informally settled with MT12 for $600. MDEQ did not view
                      the $600 amount as a penalty.

 4.       MT20        MDEQ cited the facility for unlawfully disposing of hazardous       X     X     X     X     X     X     X
                      waste without a permit. MDEQ did not assess a penalty,
                      although the file showed that the facility owner could pay a
                      penalty of $12,980.



                                                                53                         Report No. 000762-2001-P-00004
                                             Appropriate Violator Classifications and Timely Initial Enforcement
                                             Actions Would Strengthen Montana's RCRA Enforcement Program


      Facility                     MDEQ Penalty Activities                          A   B   C    D    E    F       G
       Name

5.    MT22       MDEQ cited the facility for operating in a manner that                          X    X
                 released hazardous waste to the soil. MDEQ assessed a
                 $13,513 penalty. MDEQ did not assess a multi-day
                 component because it could not determine the violation start
                 date. One Region 8 official said that MDEQ could have used
                 the “violation discovery” date as the start date for multi-day
                 purposes.

6.    MT24       MDEQ cited the facility for operating a hazardous waste                         X
                 facility without a permit. In a letter to the facility, MDEQ
                 stated that it had evidence to support a $400,000 penalty, but
                 that it would be willing to settle for $21,340. MDEQ later
                 reduced its penalty calculation to $16,228, and eventually
                 settled with the facility for $8,200 according to a 06/09/00
                 press release. MDEQ officials stated that litigation risks
                 justified the penalty reductions.

7.    MT26       MDEQ assessed the facility a penalty for violations including                   X    X    X
                 used oil soil contamination.

8.    MT27       MDEQ cited the facility for numerous violations, including                           X
                 soil contamination, improper drum markings, and lack of
                 training records. MDEQ assessed a penalty of $20,497.

9.    MT32       MDEQ cited the facility for more than 11 violations. MDEQ                       X    X    X
                 assessed a penalty of $34,849.

10.   MT33       MDEQ cited the facility for numerous violations, including                      X    X    X
                 unmarked hazardous waste containers and insecure drum
                 covers. MDEQ proposed a penalty of $6,700. MDEQ
                 officials stated that an extensive analysis was not necessary to
                 determine that the economic benefit derived from MT33's
                 violations would have been minimal. MDEQ officials further
                 noted that the Department considered economic benefit, yet
                 they could not provide documentation concerning the
                 calculation of economic benefit.

11.   MT39       MDEQ cited the facility for numerous violations, including         X   X   X    X    X    X       X
                 operating a disposal facility without a permit. MDEQ did not
                 assess a penalty because they said a penalty was negligible.

12.   MT41       MDEQ cited the facility for a release of wood stripping            X   X   X         X    X
                 solvents to the groundwater under the facility. MDEQ never
                 assessed a penalty.

13.   MT42       MDEQ cited the facility for not properly registering as a small                 X    X    X
                 quantity generator. MDEQ calculated an initial penalty of
                 $8,500. It was not clear from the file how MDEQ reached an
                 eventual settlement of $1,000 after it earlier rejected the
                 facility’s $500 settlement offer.

TOTALS                                                                              4   6   3   11   10    10      2



                                                           54                       Report No. 000762-2001-P-00004
                                 Appropriate Violator Classifications and Timely Initial Enforcement
                                 Actions Would Strengthen Montana's RCRA Enforcement Program



                                                                                       APPENDIX I
                              AGENCY RESPONSE
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                                   REGION 8

                                         999 18TH STREET - SUITE 300

                                           DENVER. CO 80202-2466





                    (February 23, 2001 ) Date Stamped

Ref: 8MO

MEMORANDUM

SUBJECT:	 Draft Audit Report: Appropriate Violator Classifications and Timely
          Enforcement Actions Would Improve Montana’s RCRA Enforcement
          Program. Report Number 2000-P-000762-XXXX

FROM:	       Jack W. McGraw, Acting Regional Administrator
             Region 8

TO:	         Kimberly Victor, Acting Audit Manager
             Office of Inspector General

       Attached is EPA Region 8's response to the above-referenced draft audit report.
In Attachment 1, this response addresses errors, suggests alternative or modified
recommendations, and suggests changes for clarity. In Attachment 2, the response
notes where Region 8 has already taken steps to address the draft recommendations,
and discusses how the Region plans to address those recommendations that have not
already been addressed. Reviews conducted by Region 8 using the Unified
Enforcement Oversight System (UEOS), and prior reviews conducted using the
Appropriate State Oversight Project (ASOP), have led Region 8 to conclusions similar
to those contained in your report.

     Because I believe some of your recommendations may be impacted by the
comments in Attachment 1, we have provided in Attachment 2 a general description of
how Region 8 will respond to your recommendations. After your final report is written,
we may be able to be more specific in our response to your recommendations.

       Please note that page numbers in the attached response refer to page numbers

                                            55                       Report No. 000762-2001-P-00004



                                                                                      Printed on Recycled Paper
                                  Appropriate Violator Classifications and Timely Initial Enforcement
                                  Actions Would Strengthen Montana's RCRA Enforcement Program

in the hard copy of the report you provided on December 20, 2000, and may not
coincide with the page numbers of the electronic copy of the report.


      Finally, I wish to tell you that the Region 8 staff with which you, Erin Barnes, Tom
Herrod, and Larry Dare have interacted during this audit have provided very positive
comments regarding the professional and communicative manner in which you all have
conducted this audit. I wish to extend my appreciation to each of you for your
cooperation and consideration.

       If you have any questions regarding this response, please contact Eric Finke
(406) 441-1130 ext 239, Marvin Frye (303) 312-6902, or Mike Gaydosh (303) 312-
6773.

Attachments 1 and 2

cc:	   John Wardell
       Marvin Frye
       Mike Gaydosh
       Beverly Goodsell
       Eric Finke




                                             56                       Report No. 000762-2001-P-00004
                                  Appropriate Violator Classifications and Timely Initial Enforcement
                                  Actions Would Strengthen Montana's RCRA Enforcement Program

           EPA Region 8's Response to Draft Audit Report: 

 Appropriate Violator Classifications and Timely Enforcement Actions 

       Would Improve Montana’s RCRA Enforcement Program. 

                 Report Number 2000-P-000762-XXXX


                                Attachment 1
General Comments

1.	   Throughout the report where the deviation from evaluation criteria is stated, it
      would be useful to include the range and average of these deviations. For
      example, on page 12 the report states “in 7 of the 16 enforcement actions,
      MDEQ’s decision to pursue formal enforcement against a facility exceeded the
      90-day requirement specified in EPA guidance,” and then provides two examples
      illustrating this point. It would be useful and more informative for the reader if
      the report also described the range and average of the days that MDEQ
      exceeded the ERP’s 90-day criteria.

Executive Summary

2.	   Page i, Introduction. It would be helpful to add a brief description of the level of
      program authorization for MDEQ to help clarify what roles MDEQ and Region 8
      have in the hazardous waste program in Montana. During the audit period,
      Montana was authorized for the RCRA “base” program, and RCRA rules
      promulgated up through March 1989. Montana therefore had lead responsibility
      to issue permits (except for corrective action), monitor compliance, and enforce
      most of the significant RCRA requirements in Montana. Montana was not yet
      authorized for RCRA corrective action or the LDR provisions, and is not
      authorized to implement RCRA in Indian Country. Until December 26, 2000,
      when Montana was authorized for corrective action, the EPA Montana Office had
      the lead for implementing corrective action, and did so with the close
      participation of DEQ. The EPA Montana Office also implements all provisions of
      RCRA in Indian Country.

Chapter 1:   Introduction

3.	   Page 1, Purpose, 1st paragraph. Compliance monitoring and enforcement are
      two of many components of the RCRA program. When evaluating how well
      human health and environment are protected, it is difficult to specifically
      measure the effectiveness of any single component when compared to the

                                             57                       Report No. 000762-2001-P-00004
                                  Appropriate Violator Classifications and Timely Initial Enforcement
                                  Actions Would Strengthen Montana's RCRA Enforcement Program

      whole. Therefore, I suggest changing “The overall objective of our audit was to
      determine whether EPA Region 8's and Montana’s RCRA compliance monitoring
      and enforcement program protected human health and the environment” to “The
      overall objective of our audit was to determine whether EPA Region 8's and
      Montana’s RCRA compliance monitoring and enforcement program followed the
      RCRA ERP and the EPA/DEQ cooperative enforcement agreement.”

Chapter 2:	 MDEQ Needed to More Appropriately Classify Violators and initiate
            Timely Enforcement Actions

4.	   Page 12, Table 2-1, MT27. Table 2-1 states that MT27 had repeated Class I
      and II violations during 4 inspections between 1992 and 1999, and concludes
      that MT27therefore should have been, but was not, classified as an high priority
      violator in a timely manner.

      MDEQ’s file indicates that the first 2 of the 4 inspections referred to in Table 2-1
      (conducted in September 1992 and September 1993) were followed by 3
      inspections (August 1995, January 1996, February 1997) during which no
      violations were found. The next 2 inspections referred to in Table 2-1 (February
      1999 and August 1999) then found both new and repeated violations. The
      MDEQ file also shows that the violations found during each of the first 2
      inspections were less significant and fewer in number than those found during
      the last 2 inspections.

      As noted in comment 12, the 1987 ERP does not require that a violator be
      classified as a high priority violator merely because it had prior violations. In the
      MT27 case, approximately 3½ years passed during which 3 inspections found
      no violations. Because the violations of the first 2 inspections were both minor
      and few in number, and because MT27 was found to be in compliance for a
      significant period of time after those 2 inspections, MT27 did not meet the 1987
      ERP criteria for classification as a “chronic” violator until the August 1999
      inspection. Therefore, I concur with MDEQ’s classifications for MT27, and
      suggest that MT27 be removed from Table 2-1.

5.	   Page 12, Violator Classifications and Enforcement Decisions Did Not Follow
      Policy, last paragraph. This paragraph is confusing because it occurs in the
      section of the report which evaluates violator classification, yet appears to
      evaluate timeliness of enforcement decisions or actions. And for the following
      reasons, it is unclear what is actually being evaluated.

      In making its evaluation, this paragraph compares the 1987 ERP’s 90-day period
      for HPVs between violation discovery and filing of an enforcement action (an
                                             58                       Report No. 000762-2001-P-00004
                                 Appropriate Violator Classifications and Timely Initial Enforcement
                                 Actions Would Strengthen Montana's RCRA Enforcement Program

      “action-based” time period) to MDEQ’s time between evaluation (inspection) date
      and filing of an enforcement request (a “decision-based” time period). First, this
      comparison utilizes incompatible start dates (discovery versus evaluation).
      Second, since the “decision to act” will always come before the “act”, this
      comparison will not be relevant to evaluation of MDEQ’s performance against
      any established 1987 ERP criteria. There are no 1987 ERP criteria against
      which to evaluate timeliness of the decision to take formal enforcement action,
      only timeliness of the enforcement action itself. MDEQ’s enforcement process
      contains a decision-making point (the enforcement request), but there is no
      comparable milestone in the 1987 ERP. I suggest that this evaluation be
      removed from the report, or that the text of the report be modified to state that
      there are no 1987 ERP criteria against which to measure MDEQ’s decision-
      making performance.

6.	   Page 14, Table 2-3, MT12. The text of this entry in Table 2-3 states that MDEQ
      dropped this case due to insufficient evidence, but at the same time takes issue
      with MDEQ’s failure to assess a penalty. This implies that the auditors disagree
      with MDEQ’s decision to drop this case due to insufficient evidence, but the
      report does not say whether the auditors themselves made an independent
      assessment of the evidence.

      I believe it is the responsibility of the enforcing agency to re-evaluate as
      necessary the sufficiency of evidence for any violation, and an inherent part of
      any re-evaluation of evidence is a potential re-classification of the violator. If
      one accepts MDEQ’s determination that insufficient evidence existed for a formal
      enforcement action, a penalty assessment of any kind would be moot. If one
      believes that sufficient evidence did exist for a formal enforcement action, the
      lack of a penalty assessment seems to be secondary to the issue of improper
      handling of the case overall. For these reasons, I suggest removing MT12 from
      the report both in Table 2-3 and in Exhibit 6 (as an example of an inadequate
      penalty assessment) unless an independent evaluation of the evidence was
      made which concluded that sufficient evidence did exist for a formal enforcement
      action.

7.	   Page 15, Region 8 RCRIS Data Entry Needed Improvement, 1st paragraph.
      Since most relevant CM&E data exist for MT02 and MT19 in RCRIS, I suggest
      changing the 2nd sentence to read “For example, Region 8 oversight inspectors
      did not input recent case settlement data into RCRIS for the MT02 facility, or
      recent oversight inspection information for the MT19 facility.”

8.	   Page 16, MDEQ Needed to Use EPA Guidance, 1st paragraph. The paragraph
      accurately describes that Region 8 and MDEQ did not update the 1993

                                            59                       Report No. 000762-2001-P-00004
                                   Appropriate Violator Classifications and Timely Initial Enforcement
                                   Actions Would Strengthen Montana's RCRA Enforcement Program

       enforcement agreement to incorporate the 1996 ERP, and the paragraph seems
       to imply that Region 8 should have done so. Overall, the 1996 ERP is more
       lenient than the 1987 ERP in its enforcement timeline. Since your investigation
       found that MDEQ would have been untimely under either the 1987 ERP or the
       1996 ERP, I question the implication that the adopting the 1996 ERP would have
       been beneficial.

       Also, Montana’s 1997 legislature enacted the Voluntary Environmental Audit
       Law, which raised serious questions within EPA regarding Montana’s continued
       ability to enforce its own environmental laws. Although Region 8 commented on
       Montana’s proposed Consolidated Cooperative Enforcement as early as April
       1999, until the question of enforceability was resolved by Region 8’s and
       Montana’s signing of an MOU in December 1999, Region 8 maintained that it
       was unwilling to authorize Montana for additional RCRA program requirements
       or formally update the enforcement agreement.

9.	    Page 20, Improved Monitoring of Case Progress Needed, 3rd paragraph. This
       paragraph cites MT12 as an example of poor case monitoring. As stated in
       Table 2-3, after the enforcement request had been received, MDEQ
       enforcement staff determined that inadequate evidence existed for a formal
       enforcement action. Therefore, MT12 does not seem to fit the paragraph as an
       example poor case monitoring, and I suggest that MT12 be replaced with
       another example. (See also comments 6 and 19 for relevant information.)


10.	   Page 24, Improved Documentation Needed, 1st paragraph. The second
       sentence states “MDEQ needed to better document its rationale for penalty
       assessments and enforcement action classifications, as well as a facility’s full
       return to compliance.” The ensuing text includes statistics which describe how
       frequently penalty assessments were inadequately documented. It would be
       useful to include similar statistics in this and the ensuing paragraphs to illustrate
       how frequently the other two allegations occurred. For example, Region 8's
       CM&E reviews for the years 1997 through 1999 found, with only a few
       exceptions, that MDEQ (permit and compliance staff) generally did document
       return to compliance in both RCRIS and in the handler files.

11.	   Page 26, Insufficient Documentation of Enforcement Action Classifications and
       Return to Compliance, 1st paragraph. The paragraph states “MDEQ’s files did
       not always document support for the Department’s decisions to classify facilities
       as low priority violators instead of high priority violators.”

       Neither the 1987 nor the 1996 ERP require documentation to support low priority

                                              60                       Report No. 000762-2001-P-00004
                                   Appropriate Violator Classifications and Timely Initial Enforcement
                                   Actions Would Strengthen Montana's RCRA Enforcement Program

       violators classifications. Perhaps the auditor’s statement was intended to
       suggest something else. If so, I suggest that it be clarified.

12.	   Page 28 Recommendation 2-5. Taken together, page 21 of the draft report
       (which states “Additionally, by instituting a triage process where cases are
       prioritized, the enforcement division may be able to better identify more difficult
       cases and allocate resources more effectively.”) and Recommendation 2-5 seem
       to suggest that MDEQ could use a “triage” process to establish case priorities.
       This in turn seems to imply that the auditors believe it would be acceptable for
       lower priority cases to exceed the timeliness criteria of the enforcement
       agreement as long as the higher priority cases were pursued within timelines.
       Please clarify if this is so, and clarify how the auditors would reconcile this with
       the ERP which allows for the more difficult cases (which are also often higher
       priority) to sometimes exceed timelines.

       In addition, please note whether your audit included a review of MDEQ’s
       Enforcement Compliance Information System (ECIS), and whether ECIS is (or
       could be) helpful in meeting the need for case monitoring.

Exhibit 3: Violator Classifications

13.	   Facility MT05. According to Region 8's review of this MDEQ handler file, only
       one violation was discovered during the 06/03/96 inspection – failure to clean up
       a used oil spill. MT05 submitted the required cleanup plan, and according to the
       inspector MT05 cleaned up the spill.

       During the 11/25/97 inspection, the same violation was found again (different
       spill), along with other Class II violations, such as satellite accumulation quantity
       exceeded, used NiCad batteries not labeled “universal waste”, and 3 drums of
       used oil not labeled “used oil”. None of these violations would pose a significant
       threat to health or environment, or potentially cause in inappropriate response to
       a release, nor are they significant deviations from RCRA requirements.

       In both inspection reports, the inspector referred to “some” of the oil being
       released in his discussion of the spills, an indication that the releases were not
       major. On 1/19/01, the inspector verbally verified that the oil spills were in fact
       minor. Unless the used oil spill was a “major” release, even the Region 8 Used
       Oil Field Citation Program would assess a $100 field citation rather than seek a
       formal enforcement action. In my opinion, MT05 did not meet the 1987 ERP
       criteria for a chronic or recalcitrant violator. Therefore, I concur with MDEQ’s
       decisions to issue Warning Letters in both of these situations, and suggest that
       MT05 be removed from Exhibit 3.

                                              61                       Report No. 000762-2001-P-00004
                                   Appropriate Violator Classifications and Timely Initial Enforcement
                                   Actions Would Strengthen Montana's RCRA Enforcement Program

14.	   Facility MT18. The table entry for MT18 states “Since the facility was previously
       inspected on 02/02/95 and was aware of MDEQ’s presence, MDEQ should have
       classified the facility as a high priority violator in the subsequent inspection.” I
       disagree. Merely being aware of a regulatory agency’s presence is not a criteria
       of the 1987 ERP for a chronic or recalcitrant violator, and does not make a
       violator an HPV. If that were true, EPA could make a case that any violator
       would be an HPV as long as the violator knew that EPA existed as an agency,
       and there would then be no reason for an ERP.

       According to Region 8's review of this MDEQ handler file, no violations were
       found during the 2/2/95 inspection, and all of the violations found during the
       3/18/98 inspection would be Class II according to the 1987 ERP. MT18 had
       registered as a CESQG in December 1991. A 3/15/95 letter from MDEQ to
       MT18 verified that MT18 had not yet generated sufficient waste to be classified
       as SQG, the next higher generator classification. MT18 registered itself as an
       SQG 3 days before receiving MDEQ’s 3/27/98 Warning Letter requiring MT18 to
       do so, and had complied with the other terms of the 3/27/98 Warning Letter by
       6/1/98. For these reasons, I concur with MDEQ’s decision to classify the 3/18/98
       violations as LPV, and suggest that MT18 be removed from Exhibit 3.

15.	   Facility MT22. According to the revised Exhibit 3 which you provided us on
       1/10/01, the violation classification at MT22 with which you disagreed was the
       one associated with MDEQ’s 7/9/98 inspection. There were three other violator
       classifications at MT22 with which you agreed. According to Region 8's review
       of this MDEQ handler file, that violation was for failure to clean up a used oil
       release from a front-end loader. MDEQ classified that violation as a Class II low
       priority violation, even though MT22 had many Class I high priority violations
       discovered during 2 prior inspections in 1992 and 1993.

       According to the MDEQ file for MT22, MDEQ filed a civil complaint in 1992 for
       violations surrounding the operation of a hazardous waste management facility
       without a permit, seeking a court order assessing $10,000 per day per violation.
       (See related remarks in comment 52.) Sixteen additional violations found in
       1993 were added via a 10/7/93 amended complaint. The 7/9/98 oil spill violation
       was handled by MDEQ informally via a Warning Letter. Additional spills (of
       pentachlorophenol and used oil) discovered during a 10/6/99 inspection were
       not added to the complaint itself, but since the complaint was in settlement
       negotiations at that time, MDEQ added the remediation of these additional spills
       as conditions of settlement.

       Strictly speaking, MT22 met the 1987 ERP criteria for a chronic violator at the
       time of the front-end loader used oil spill. However, MT22 had many other

                                              62                       Report No. 000762-2001-P-00004
                                  Appropriate Violator Classifications and Timely Initial Enforcement
                                  Actions Would Strengthen Montana's RCRA Enforcement Program

       significant, extensive, and long-standing violations, including soils extensively
       contaminated by spills and dumping of hazardous wastes far more toxic and
       persistent than used oil. The used oil spill from the front-end loader had little
       relative impact on the threat to environment and public health posed by MT22,
       and classifying the spill as Class I would have had little relative impact on the
       remediation of the extensive violations and contamination at this facility.

16.	   Facility MT27. Please refer to comment 4 for the rationale for why MT27 should
       be removed from Exhibit 3 (as an example of improper violation classification.)

Exhibit 4-A: Timeliness of Decisions to Take Formal Enforcement Action

17.	   Title. The “Date of Determination” from the 1987 ERP refers to the date that a
       significant violation is determined to exist, rather than to the timeliness of the
       decision to take or to not take enforcement action. In addition, the 1987 ERP
       uses the term “Discovery” rather than “Determination.” As discussed in comment
       5, the 1987 ERP does not contain criteria against which to measure timeliness of
       the decision to take enforcement action, only the timeliness of violation discovery
       and of the enforcement action. Therefore, I suggest changing the title of Exhibit
       4-A to something like “Timeliness of Violation Discovery.”

18.	   Facility MT02. In response to Region 8's SFY 99 End-of-Year Compliance
       Monitoring and Enforcement Review, MDEQ asserted that this was a complex
       case, and that preparation of the inspection report (and therefore achieving date
       of discovery and preparing the Warning Letter) required additional time as
       allowed by the 1987 ERP. Region 8 agreed with MDEQ’s assertion, and noted
       the discovery date to be timely in this case.

Exhibit 5: Formal Enforcement Actions

19.	   Page 36, Facility MT12. The table lists 8/5/98 as the date that MDEQ dropped
       the case due to insufficient evidence, and uses that date as the date of “initial
       actions” for purposes of computing performance against the ERPs and the
       CCEA. August 5, 1998 was instead the date of an internal MDEQ case file
       summary.

       For purposes of determining MDEQ enforcement performance against the ERPs
       and the CCEA, one must recognize that there are actually 2 parts to this case.
       Only one part, the alleged disposal of paint cans in a pasture, was dropped
       entirely as an enforcement case. The other part involved improper handling of
       other paint waste at another location, and MDEQ resolved these violations
       informally.
                                             63                       Report No. 000762-2001-P-00004
                                    Appropriate Violator Classifications and Timely Initial Enforcement
                                    Actions Would Strengthen Montana's RCRA Enforcement Program

       The 8/5/98 case file summary lists a 7/30/98 as the date that the enforcement
       division closed the first part of the case. Although it is only 6 days earlier, I
       believe 7/30/98 provides a better date for the date of “initial action” for the first
       part of this case. Using 7/30/98, the elapsed days in the latter 2 columns
       ofMT12's row in Exhibit 5 change from 364 and 311 days to 358 and 305 days
       for the first part of the MT12 case.

       A more proper date for evaluation of MDEQ’s initial action timeliness for the
       second part of the case would be the date that MDEQ hand-delivered NOVs to
       the three “defendants”. That date was 3/2/98. Using 3/2/98, one calculates 208
       and 155 days for the latter 2 columns of this row for the second part of the case.

Exhibit 6: Penalty Assessments Did Not Meet Policy Requirements

20.	   Page 38, Facility MT12. For the reasons described in comments 6 and 9 above,
       I suggest that MT12 be removed from Exhibit 6 as an example of an inadequate
       penalty assessment.

21.	   Page 38, Facility MT22. The text for MT22 states “MDEQ assessed a $13,513
       penalty in accordance with state and federal guidance, and its penalty
       worksheets included calculations for gravity and economic benefit. MDEQ did
       not assess a multi-day component because it could not determine the violation
       start date.”

       Perhaps this statement about MT22 should be clarified. During Region 8's
       review of the PCD file for MT 22, a penalty worksheet dated 1/20/93 was found
       which calculated a total penalty amount of $49,782, of which $12,782 was
       economic benefit, and $29,000 was for multi-day violations. A later enforcement
       request dated 8/2/93 included 12 separate penalty calculation worksheets, each
       of which addressed gravity, economic benefit, and multi-day violations. The
       amended complaint based on this enforcement request sought an additional
       $404,900 in penalties.




                                               64                       Report No. 000762-2001-P-00004
                             Appropriate Violator Classifications and Timely Initial Enforcement
                             Actions Would Strengthen Montana's RCRA Enforcement Program

           EPA Region 8's Response to Draft Audit Report: 

 Appropriate Violator Classifications and Timely Enforcement Actions 

       Would Improve Montana’s RCRA Enforcement Program. 

                 Report Number 2000-P-000762-XXXX


                            Attachment 2
Recommendation 2-1.	   Require MDEQ to comply with its new consolidated
                       cooperative enforcement agreement, particularly when
                       classifying violators and taking timely and appropriate
                       enforcement actions.

Region 8 Response:	    Region 8 agrees with the auditors’ recommendation, and will
                       look for ways in which to encourage MDEQ to abide by the
                       CCEA. See also Region 8's response to Recommendation
                       2-10.

Recommendation 2-2.	   Require MDEQ to escalate chronic or recalcitrant violators
                       for formal enforcement rather than continue compliance
                       assistance.

Region 8 Response:	    Region 8 agrees with the auditors’ recommendation, and will
                       look for ways in which to encourage MDEQ to do so. See
                       also Region 8's response to Recommendation 2-10.

Recommendation 2-3.	   Require MDEQ to fully calculate penalties, including
                       economic benefit and multi-day components where
                       appropriate, when issuing formal enforcement actions
                       against high priority violators.

Region 8 Response:	    Region 8 agrees with the auditors’ recommendation, and will
                       look for ways in which to encourage MDEQ to do so. See
                       also Region 8's response to Recommendation 2-10.

Recommendation 2-4.	   Provide additional RCRIS training to staff in Region 8's
                       Montana Operations Office.

Region 8 Response:	    Region 8 (and all of EPA) recently converted from RCRIS to
                       RCRAInfo, a web-based data system for RCRA. Region 8 is
                       in the process of training all Region 8 RCRA staff on this

                                        65                       Report No. 000762-2001-P-00004
                              Appropriate Violator Classifications and Timely Initial Enforcement
                              Actions Would Strengthen Montana's RCRA Enforcement Program

                       new system, and will include the Montana Operations Office
                       staff in the training schedule. Regarding the missing RCRIS
                       data noted by the auditors, the Montana Office staff have
                       already prepared and submitted the data forms necessary to
                       add that data to RCRIS.

Recommendation 2-5.	   Work with MDEQ to develop an effective process for
                       monitoring case progress and prioritizing enforcement
                       requests using time frames in the State’s new enforcement
                       agreement.

Region 8 Response:	    The Montana Office and MDEQ have established a meeting
                       date to discuss how to better track case progress, and to
                       modify ECIS reports to provide the data necessary to do so.

Recommendation 2-6.	   Support MDEQ efforts and provide assistance, where
                       appropriate, in developing an information-sharing process
                       so both inspectors and enforcement staff are aware of
                       facility activities.

Region 8 Response:	    Region 8 agrees that close consultation between
                       compliance monitoring staff and case development staff is
                       necessary in order to achieve a sound and effective
                       enforcement action. Region 8 will explore with MDEQ
                       practices which might enhance this activity.

Recommendation 2-7.	   Support MDEQ efforts and provide assistance, where
                       appropriate, in developing a divisional cross-training plan for
                       staff that provides technical training and information on case
                       development.

Region 8 Response:	    Region 8 and EPA-NETI have access to numerous RCRA-
                       and enforcement-related training courses, and have made
                       them available to all states, including Montana. At least one
                       of those training courses has been presented in Montana,
                       and another soon will be. To our knowledge, Montana has
                       attended such training as their resources have allowed.

Recommendation 2-8.	   Require MDEQ to sufficiently document its actions related to
                       penalty calculations and reductions, violator classifications,
                       and instances where MDEQ provides extended time frames
                       for a facility to return to compliance.

                                         66                       Report No. 000762-2001-P-00004
                              Appropriate Violator Classifications and Timely Initial Enforcement
                              Actions Would Strengthen Montana's RCRA Enforcement Program



Region 8 Response:	     Region 8 agrees with the auditors’ recommendation, and will
                        look for ways in which to encourage MDEQ to do so. See
                        also Region 8's response to Recommendation 2-10.

Recommendation 2-9.	    Require MDEQ to maintain sufficient documentation of a
                        facility’s full return to physical compliance.

Region 8 Response:	     Region 8 agrees with the auditors’ recommendation, and will
                        look for ways in which to encourage MDEQ to do so. See
                        also Region 8's response to Recommendation 2-10.

Recommendation 2-10.	   After discussions and clarifications of the recommendations
                        in the draft report, Region 8 and the IG Auditors agree with
                        the inclusion of this additional recommendation.
                        As part of its Uniform Enforcement Oversight System, the
                        Region should assess whether MDEQ has complied with the
                        report's recommendations and adjust the level of regional
                        oversight and technical assistance accordingly. The Region
                        should also include pertinent recommendations as part of
                        MDEQ's grant conditions, performance partnership
                        agreement, and/or other agreements to ensure they are
                        implemented. Finally, the Region should develop a tiered
                        approach for states that do not properly classify violators or
                        take timely enforcement action. Its approach should define
                        when the Region will overfile, directly implement, withhold
                        grant dollars, and finally take back the program.

Region 8 Response:	     Region 8 has already implemented a Uniform Enforcement
                        Oversight System (UEOS) which will allow us to access
                        whether MDEQ has complied with the report
                        recommendations, adjust oversight and assistance, and
                        include pertinent recommendations in the PPA. . Under the
                        UEOS, state enforcement programs which fall below the
                        minimum standards are subject to targetted oversight. This
                        targeted oversight is tailored to aid and encourage the state
                        to correct enforcement program deficiencies. Targeted
                        oversight can include enhanced file review, technical
                        assistance, work sharing, direct implementation, over filing,
                        and inclusion of corrective actions as a part of the PPA
                        process. The Office of Enforcement, Compliance, and
                        Environmental Justice (ECEJ) agrees to the development of

                                         67                       Report No. 000762-2001-P-00004
      Appropriate Violator Classifications and Timely Initial Enforcement
      Actions Would Strengthen Montana's RCRA Enforcement Program

a written policy which details the implementation of the
UEOS targeted oversight escalation process. The Region
agrees that EPA oversight and involvement can be tiered to
escalate monitoring of the state and to take actions beyond
the UEOS approach to include, but not limited to,
withholding grant dollars, and program withdrawal. The
Region will develop a policy specifying how it will implement
this tiered escalation approach. ECEJ has begun a
dialogue with other Regional programs to discuss this policy
and the broader program implications of this
recommendation.




                 68                       Report No. 000762-2001-P-00004
               Appropriate Violator Classifications and Timely Initial Enforcement
               Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                    APPENDIX II
                  ABBREVIATIONS




EPA     Environmental Protection Agency


MDEQ    Montana Department of Environmental Quality


OIG     Office of Inspector General


RCRA    Resource Conservation and Recovery Act


RCRIS   Resource Conservation and Recovery Act Information System 





                          69                       Report No. 000762-2001-P-00004
                                     Appropriate Violator Classifications and Timely Initial Enforcement
                                     Actions Would Strengthen Montana's RCRA Enforcement Program

                                                                                         APPENDIX III
                                          DISTRIBUTION


Office of Inspector General
       Inspector General
       Assistant Inspector General for Human Capital
       Assistant Inspector General for Planning, Analysis and Results
       Assistant Inspector General for Audit
       Assistant Inspector General for Program Evaluation
       Media and Congressional Liaison
       Editor
       Divisional Inspectors General for Audit

Headquarters Office
      Assistant Administrator, Office of Enforcement and Compliance Assurance
      Assistant Administrator, Office of Solid Waste and Emergency Response
      Comptroller (2731A)
      Agency Followup Official (2710A)
      Agency Audit Followup Coordinator (2724A)
      Associate Administrator for Congressional and Intergovernmental Relations (1301A)
      Director, Office of Regional Operations (1108A)
      Associate Administrator for Communications, Education, and Media Relations (1101A)

EPA Region 8
     Acting Deputy Regional Administrator
     Assistant Regional Administrator, Enforcement, Compliance, and Environmental Justice
     Deputy Assistant Regional Administrator, Enforcement, Compliance, and Environmental
             Justice
     Director, Technical Enforcement Program
     Director, Montana Operations Office
     Audit Followup Coordinator
     Director, Office of Communications and Public Involvement

Regional Offices
      Regional Administrators

Montana Department of Environmental Quality Offices
      Director
      Audit Followup Coordinator
      Administrator, Enforcement Division
      Chief, Permitting and Compliance Division, Air and Waste Management Bureau

                                                70                       Report No. 000762-2001-P-00004
